<html>
<title> - CENSUS 2010: USING THE COMMUNICATIONS CAMPAIGN TO EFFECTIVELY REDUCE THE UNDERCOUNT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





 CENSUS 2010: USING THE COMMUNICATIONS CAMPAIGN TO EFFECTIVELY REDUCE 
                             THE UNDERCOUNT

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2008

                               __________

                           Serial No. 110-124

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                                  ------

                   U.S. GOVERNMENT PRINTING OFFICE
47-524 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001










              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         CHRIS CANNON, Utah
JOHN A. YARMUTH, Kentucky            BILL SALI, Idaho
PAUL W. HODES, New Hampshire
                      Tony Haywood, Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 10, 2008....................................     1
Statement of:
    Harrison, Roderick, director, Databank, joint Center for 
      Political and Economics Studies; Dr. Barbara A. McKinzie, 
      Chair, 2010 Census Subcommittee, National Pan-Hellenic 
      Council; and David J. Lange, general manager, Scholastics 
      Marketing Partners, Scholastic, Inc........................    73
        Harrison, Roderick.......................................    73
        Lange, David J...........................................    96
        McKinzie, Barbara A......................................    85
    Murdock, Steven H., Director, Bureau of the Census, U.S. 
      Department of Commerce; and Jeff Tarakajian, executive vice 
      president, Client Services, DraftFCB.......................    34
        Murdock, Steven H........................................    34
        Tarakajian, Jeff.........................................    43
Letters, statements, etc., submitted for the record by:
    Baca, Hon. Joe, a Representative in Congress from the State 
      of California, prepared statement of.......................   112
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Clyburn, Hon. James E., a Representative in Congress from the 
      State of South Carolina, prepared statement of.............    10
    Gonzalez, Hon. Charles A., a Representative in Congress from 
      the State of Texas, prepared statement of..................    27
    Harrison, Roderick, director, Databank, joint Center for 
      Political and Economics Studies, prepared statement of.....    76
    Lange, David J., general manager, Scholastics Marketing 
      Partners, Scholastic, Inc., prepared statement of..........    98
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Prepared statement of....................................    23
        Prepared statement of Donald L. Evans....................    15
    McKinzie, Dr. Barbara A., Chair, 2010 Census Subcommittee, 
      National Pan-Hellenic Council, prepared statement of.......    87
    Murdock, Steven H., Director, Bureau of the Census, U.S. 
      Department of Commerce, prepared statement of..............    36
    Rangel, Hon. Charles B., a Representative in Congress from 
      the State of New York, prepared statement of...............   114
    Tarakajian, Jeff, executive vice president, Client Services, 
      DraftFCB, prepared statement of............................    45

 
 CENSUS 2010: USING THE COMMUNICATIONS CAMPAIGN TO EFFECTIVELY REDUCE 
                             THE UNDERCOUNT

                              ----------                              


                        THURSDAY, JULY 10, 2008

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Maloney, Watson, and Turner.
    Also present: Representatives Clarke, Clyburn, Baca, 
Gonzalez, Sires, Honda, Jackson-Lee of Texas, Lee of 
California, and Kilpatrick.
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Alissa Bonner and Michelle Mitchell, professional 
staff members; Charisma Williams, staff assistant; Dorian 
Rosen, intern; Benjamin Chance, minority professional staff 
member; and John Cuaderes, minority senior investigator and 
policy advisor.
    Mr. Clay. The subcommittee will come to order. The 
Information Policy, Census, and National Archives Subcommittee 
of the Oversight and Government Reform Committee will now come 
to order and good afternoon.
    Today's hearing is entitled, ``2010 Census: Using the 
Communications Campaign to Effectively Reduce the Undercount.'' 
We will examine the Census Bureau's plans to use the 2010 
integrated communications campaign to attain an accurate 
enumeration of traditionally hard to count populations. We will 
also examine whether the Bureau is on course to build on the 
successes of the 2000 census.
    We are privileged to have with us today several guests who 
are here. We have, in attendance, Members of the tricaucus. The 
tricaucus is comprised of Members of the Congressional Black 
Caucus, the Congressional Hispanic Caucus and the Congressional 
Asian Pacific American Caucus.
    Two of the Chairs are here, and one is the Honorable Mike 
Honda, and filling in for the Honorable Joe Baca will be Mr. 
Gonzalez from Texas. Also, we have the Honorable Yvette Clarke 
and the Honorable Albio Sires. I want to welcome them all here. 
Also, Honorable Yvette Clarke from New York, thank you for 
being here too.
    I am going to ask unanimous consent that they and our other 
colleagues who will show up today to join us be recognized for 
opening statements and questions and allowed to sit on the 
dais. Without objection so ordered.
    And, without objection, the Chair and the ranking minority 
member will have 5 minutes to make opening statements followed 
by opening statements not to exceed 3 minutes by any other 
Member who seeks recognition.
    And, without objection, Members and witnesses may have 5 
legislative days to submit a written statement and extraneous 
materials for the record.
    As I stated earlier, we will focus on the U.S. Census 
Bureau's plans to accurately count historically undercounted 
populations including racial, ethnic and language minorities 
during the 2010 decennial. I am pleased to welcome several 
visiting Members to this important hearing.
    The census is a vital, constitutionally mandated survey 
that policymakers and demographers rely on to make decisions, 
allocate over $300 billion in Federal funding annually, 
reapportion congressional seats and redistrict within States. 
Therefore, it is essential that the data be complete and 
accurate.
    The Bureau will use its communications campaign to help 
improve accuracy, increase the mail response rate and reduce 
the differential undercount. Unfortunately, cost overruns in 
other areas have fueled concerns regarding the Bureau's budget 
for the communications campaign.
    Given the high level of distrust of government in hard to 
count communities, the Bureau cannot risk the impact of 
underfunding the campaign which encompasses the successful 
Partnership and Census in Schools Programs.
    While I can appreciate the budget challenges that resulted 
from the Bureau's decision to revert to a paper census, most 
would agree that the communications campaign is underfunded. In 
order to duplicate the accomplishments of the 2000 census, 
which undercounted over 3 million people, the communications 
campaign needs millions of more dollars.
    It is equally disturbing to learn that funding for outreach 
to minority communities has been cut or reprogrammed when these 
communities have the greatest needs.
    An inaccurate 2010 census will leave many States without 
their fair share of Federal dollars and will handicap local 
governments for 10 years.
    With less than 2 years until the 2010 census, I looked 
forward to the testimony of our witnesses and learning how 
Congress can best partner with the Bureau in addressing these 
concerns.
    Now I will yield to the ranking member to be recognized for 
opening statements.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Turner. Thank you, Chairman Clay, for holding this 
important hearing on the communications plan for the 2010 
census.
    As the hearing title indicates, we will examine the use of 
the Census Bureau's communication campaign to help effectively 
reduce the undercount for 2010. The Bureau's communication 
campaign is a key component in the overall strategy to ensure a 
fair and accurate census.
    I agree with Chairman Clay that as we move closer to census 
day, we need to pay more attention on how we reach the 
traditionally hard to count areas. We should also ensure that 
the guiding principle for the communication campaign is the 
same guiding principle for the census, to reach as many people 
as possible.
    To be a truly effective communication campaign, 
communication efforts should reach all those living in the 
United States and its territories. It is important to address 
the traditionally hard to count areas as we can all agree that 
an undercounted census does a disservice to all of those 
involved. It is equally important, however, not to neglect 
other areas.
    I hope this hearing will give us a better understanding of 
the Bureau's efforts to communicate to American people the 
importance of participating in our national census.
    Furthermore, I look forward to reading about the types of 
communication strategies to be employed by the Bureau. With all 
of the tools available in today's information age, the Bureau 
should have a sound and relevant plan to make the best use of 
its resources.
    Census Day is April 1, 2010. Therefore, with less than 3 
years for the Bureau to effectively communicate their message 
to the American people, this hearing is as timely as it is 
relevant.
    Again, I would like to thank the chairman for holding this 
hearing. Additionally, I would like to thank the witnesses for 
their testimony and participation.
    With that, I yield back the balance of my time.
    Mr. Clay. Thank you very much, Mr. Turner.
    It is our privilege to have with us today our distinguished 
Majority Whip, the Honorable James Clyburn. Welcome, Mr. 
Majority Whip and you may proceed.
    Mr. Clyburn. Thank you very much, Mr. Chairman. Thank you 
so much for allowing me to participate in this hearing, and I 
thank you, Ranking Member Turner and other distinguished 
members of the subcommittee.
    This decennial census is an essential constitutionally 
mandated program that determines representation in Congress, 
State legislatures and local boards and councils for the next 
decade. In addition, data from the census is used to allocate 
billions of dollars in Federal funds for housing, social 
services and other vital programs. Therefore, it is imperative 
that all citizens be fully counted.
    Unfortunately, in each census, from its very beginning, the 
Bureau has missed millions of people. While the Bureau improved 
its performance in 2000 relative to 1990, the 2000 census is 
estimated to have mixed 6.4 million people and double-counted 
3.1 million for a net undercount of 3.3 million.
    Now I have a real, real problem with these statistics 
because what it says here, as we know from our own experiences, 
the people who are undercounted live in communities that are in 
the most need and the people who get overcounted are those 
people with second and third homes and, therefore, are people 
who live in communities that have less need.
    Therefore, I think it is very, very important this year, in 
view of what our experiences have been, Mr. Chairman, with 
immigration issues, with our community responses to 
immigration, with the catastrophic events that we have had all 
over our Nation that have displaced people significantly. I 
think that we need to do more in this coming census to make 
sure that we put in very sophisticated procedures to make sure 
that we lessen the undercount and hopefully eliminate the 
overcount.
    Now some census data are used to determine government 
dollars, paved roads, provide healthcare in addition to drawing 
election district lines. Accurate census data are the only way 
to assure that local communities receive their fair share of 
Federal funds and for people to get effective representation in 
their various elective bodies. Thus, every available means must 
be employed to ensure a fair and accurate census count in 2010.
    The Census Bureau must let the Members of Congress know 
where its funding needs are to effectively plan and execute the 
2010 integrated communications campaign. I want to really 
emphasize that fact.
    We are, especially the House of Representatives, this is 
where constitutionally the money is supposed to start. Please 
make us aware of what the actual needs are.
    I don't think we ought to start out shortchanging this 
process. We must find out exactly what we need to do because it 
is important to the Members here that people get counted and 
communities get the services that they need.
    I think it is imperative that the Bureau continue to 
establish partnerships with neighborhood organizations to 
assist and encourage individuals to fill out their census 
forms.
    I have had real experiences with this, and I can tell you 
that in many communities where we have not used local people, 
there is not comfort level existing among the enumerators, and 
therefore they tend to look down certain streets or what we 
might call pathways and estimate what may exist in certain 
homes. I guess it would be better said to guesstimate what may 
exist there than to have actual counts.
    When we form partnerships with people who live in these 
communities, who socialize in these areas, we stand a much 
better chance of getting a good count. To truly reach out to 
historically undercounted communities, the Bureau must hire a 
larger percentage of minorities and people who have great 
contact with minority communities.
    I, along with my colleagues, am committed to working with 
the Bureau to ensure that our constituents are adequately 
represented and counted, and I might add appropriately so.
    Thank you so much, Mr. Chairman. I yield back the balance 
of my time.
    [The prepared statement of Hon. James E. Clyburn follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you, Mr. Whip. I appreciate your opening 
statement and your participation in this hearing.
    Mr. Honda of California is recognized for an opening 
statement.
    Mr. Honda. Thank you, Mr. Chairman.
    Before I start, I just want to acknowledge the Majority 
Whip Clyburn for not only being at this hearing but also at 
other hearings such as the health disparities and representing 
the party and the communities from a leadership level also. So 
I just wanted to acknowledge that and let him know that it is 
being recognized.
    Now with the questions about the ability of the Census 
Bureau to conduct a successful 2010 census, I am very concerned 
about whether the Bureau has the resources and commitment to 
place adequate focus on traditionally undercounted communities.
    I want to thank Chairman Clay for his attention and 
commitment to reducing the undercount and increasing response 
rates within minority communities. We are truly fortunate to 
have such a vigilant chairman on our side.
    As Chair of the Congressional Asian Pacific American Caucus 
and an appropriator on the Commerce, Justice and Science 
Subcommittee I, myself, will continue to keep a close watch on 
the priorities of and funding for programs that seek to reach 
and outreach to Asian American, Pacific Islander and other 
minority communities.
    Outreach to Asian American and Pacific Islander communities 
presents particular challenges with its tremendous diversity in 
language, culture, income level, geographic distribution in 
this country and trust in government.
    I look forward to hearing testimony on the communications 
campaign, the partnerships and outreach program and the Census 
in Schools program that were each integral to reaching hard to 
count populations in 2000.
    Once again, thank you, Mr. Chairman, for ensuring that 
funding is used appropriately and for your commitment to an 
accurate count for all communities. I yield back.
    Mr. Clay. Thank you so much for that opening statement.
    Mr. Sires.
    Mr. Sires. Thank you. I will just take a minute.
    I went through the last census. I was a local mayor, and I 
couldn't agree more with the Majority Whip. I think the input 
of locals is extremely important.
    I represented a community that was 76 percent below poverty 
level, 93 percent Hispanic student body. Most of them did not 
speak English. As the mayor, I had to be actively making sure 
that everybody was counted, and those are the people that need 
it the most.
    I am here to learn, to see what I can do to help and make 
sure that the funding is there because the people that need it 
the most are the ones that are never counted.
    Thank you.
    Mr. Clay. Thank you so much.
    Mrs. Maloney, you are recognized for an opening statement.
    Mrs. Maloney. Thank you so much, Mr. Chairman, and I 
especially want to congratulate Leader Clyburn for being here 
today. It shows the importance that the Democratic leadership 
places on getting an accurate census, and it builds on his 
record of being one of the leaders of supporting and making 
sure that we get an accurate census.
    Mr. Chairman, you are to be commended for scheduling this 
vital oversight hearing. The timing could not be more critical. 
It comes on the heels of a decision by the Department of 
Commerce to cancel their long planned automation of the 2010 
census data collection as well as press accounts this week of 
growing concerns about the planning and management of the 
decennial census by this administration.
    Since the first American census in 1790, the challenge for 
the career census professionals has always been to improve on 
the most recent census. They strive to make the next census 
even more accurate and to ensure to the best of their abilities 
that we count every resident in America. Today, that challenge 
is the most difficult they have ever confronted.
    By all measures, the 2000 census was the most successful 
and the most accurate in history. A great part of that success 
in 2000 was to the first ever use of paid advertising. Indeed, 
President Bush's good friend and former Secretary of Commerce, 
Don Evans, testified before the Senate in May 2001 and made 
exactly that point, ``Census 2000 was an operational success. 
The Census Bureau met or exceeded its goals including meeting 
the mandated deadlines for releasing data for use in 
apportionment and redistricting. This success can be attributed 
to the Congress' commitment to providing full funding for a 
number of improvements including unprecedented outreach 
programs to groups that historically had the greatest 
undercounts.''
    Further on in his testimony, Secretary Evans singled out 
and gave the most credit for this achievement to the 
advertising program, the Partnership Program, the Census in 
Schools and improved census forms.
    Without objection, Mr. Chairman, I would like to submit the 
entire testimony of Secretary Evans into the record, and I 
believe it represents an important benchmark for us to measure 
against the current planning.
    Mr. Clay. So ordered.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Maloney. Thank you.
    Amazingly, in our hearings and in press accounts, we are 
learning instead of building upon the successful operations, 
this Commerce Department is trying to scale them back. You have 
shrunk the Census in Schools programs, delayed by a year the 
start of the Partnership Program, and in real dollars you are 
spending less on paid media to a population that has grown and 
is even more diverse than the population in 2000.
    I have to say, Director Murdock, this makes absolutely no 
sense. Just when your decennial plan is in a crisis, when the 
GAO and the MITRE Corp. and other independent reviews are 
saying you face a critical challenge to increase response rates 
and reduce the universe of households you must visit, you are 
shrinking the very programs proven to increase cooperation with 
the census.
    Through 22 decennial headcounts in our history, the career 
professionals at the Census Bureau have a set new Olympic 
record for accuracy in all but one. As they prepare for the 
2010 census, it seems their coaching staff has let them, and it 
is failing to give them the tools they need to succeed. You, 
instead, are asking them to do much more with fewer resources.
    Our population is much larger than 10 years, more diverse, 
living in more complex housing arrangements, relying upon 
incredibly more varied media, with polls showing historically 
low levels of trust in their government and leaders.
    Mr. Chairman, I think it is very important that we use this 
hearing today to formally get on the record the true scope and 
scale of the advertising, partnership and promotion efforts 
being planned in 2010 and how those plans compare with actual 
spending in 2000. I hope we can wade deep into the details of 
how much is being spent to help cure the undercount that every 
census experiences and how much is being spent on those 
communities that are historically the hardest to count.
    Again, I thank you for your extraordinary leadership, Mr. 
Chairman, and my compliments to the ranking member too, but 
especially to our Leader Clyburn and thank you very much for 
being here.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Clay. Thank you so much, Mrs. Maloney.
    Mr. Gonzalez is recognized for an opening statement.
    Mr. Gonzalez. Thank you very much, Mr. Chairman and, of 
course, Ranking Member Turner, members of the subcommittee and 
our esteemed Majority Whip, Mr. Clyburn.
    Good afternoon and thank you for the opportunity to 
participate in today's hearing on the 2010 census' integrated 
communications campaign. I am here today representing the 
Congressional Hispanic Caucus even though I saw Mr. Baca here a 
minute ago, who is chairman of the Caucus.
    I welcome one and all as far as the witnesses, and I hope 
that we have a very productive hearing which I believe we will.
    When I first arrived to the House of Representatives in 
1998, I was tasked with leading the Congressional Hispanic 
Caucus' 2000 census effort. At that time, my colleagues and I 
were heavily involved in working with the Census Bureau and 
stakeholders with the express goal of achieving an accurate 
census as possible.
    The Partnership and Marketing Program, as it was known 
then, was the first of its kind. It achieved its main goal, 
engaging multiple community partners to get the word out about 
the census and increase response rates. Though we still ended 
up with a minority undercount, it was less than it could have 
been. I still think of that particular count as a success.
    I still hold hope that we can be successful today. However, 
all the commentary in the press recently telling us that the 
2010 census effort is in shambles and that dramatic changes are 
needed at the Department of Commerce and Census Bureau 
management if we expect to execute a timely and accurate census 
certainly gives us pause, and I hope that we can allay some of 
those fears and maybe even misconceptions.
    I expect today's hearing focusing on the communications 
campaign for the upcoming 2010 census should help provide us 
some answers and surely a clearer picture.
    In anticipation of today's hearing, the Hispanic Caucus 
contacted the advertising firm responsible for the Hispanic 
portion of the 2010 census communication plan. While they are 
still in the planning stages and state they possess the 
resources to perform their portion of the campaign, I am 
disturbed by reports noting that funding for the 2010 census 
communication plan might be insufficient to carry out on the 
scale that we saw in 2000.
    We are pleased that the Bureau has seen fit to bring this 
team onboard, and we are certain they will do a good job. 
However, if these statements are true, I fail to see how the 
Bureau expects to achieve the same level of success this time 
as we had here in the last 2000 census. I would note that now 
is not the time for the census to handicap its partners in such 
an important endeavor.
    Additionally, I am concerned with the decision to scale 
back the Census in Schools Program, fully eliminating any 
outreach to students in grades 7 through 12. I know I speak for 
my colleagues when I say that I would like to see what data the 
Bureau has to support the decision to curtail a program that 
actually worked the last time.
    I hope the witnesses today will be able to explain whether 
we should expect to see an effort along the same scale as we 
had in the 2000 census, the same breadth, the same scope or 
should we expect a reduced effort by the Census Bureau to reach 
out to our communities represented here today.
    I look forward to hearing from all of the witnesses this 
afternoon to answer these concerns and to share their insight 
on how we credibly move forward despite some of the bumps the 
Agency has experienced up until now, and I yield back, Mr. 
Chairman.
    [The prepared statement of Hon. Charles A. Gonzalez 
follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Clay. Thank you, Mr. Gonzalez, and we look forward to 
your participation in this process especially with all of your 
experience with the census.
    Ms. Clarke, you are recognized for an opening statement.
    Ms. Clarke. I just wanted to take this opportunity to thank 
the distinguished chairman, William Lacy Clay, and the ranking 
member, Michael Turner, as well as Majority Whip Clyburn and I 
see the various Chairs of the caucuses of color here on the 
Hill as well as my colleagues for their participation and 
inviting me for this extremely important dialog brought before 
the subcommittee.
    I also thank you witnesses for taking the time out of your 
busy schedules to testify today.
    Currently, it appears that we must urgently address the 
fact that the U.S. Census Bureau has customarily undercounted 
countless people of color. When we look at, for example, the 
2000 census, it failed to count an estimated 600,000 African 
Americans.
    I want to put that into the context of today if indeed that 
number is correct. When you look at what is happening in terms 
of mortgage foreclosures and homes closing and for communities 
like mine in Brooklyn, NY, the increased and heightened 
immigration enforcement and the fear that has begun to permeate 
mixed communities of immigrants and citizens, that makes your 
task even more important.
    The U.S. Census Bureau is important to many communities of 
color because, as we know, the Federal Government uses these 
numbers to allocate funding for community programs and services 
such as education programs, housing, community development, 
healthcare services for the elderly and job training.
    State, local and tribal governments use census information 
for planning and allocating funds for new school construction, 
libraries and locations for police and fire departments.
    Community organizations use census information to develop 
social services programs, community action projects, senior 
lunch programs, childcare centers. The list goes on and on, the 
infrastructure of our civil society.
    I am concerned about the shortfall of funding required to 
make this effort successful. I would like to say at the end of 
the day that we are not doing an exercise in futility. 
Certainly, the variables that we see before us right now lead 
us to a conclusion that we are not prepared financially and 
otherwise to put forth our best effort.
    So, today, I look forward to hearing all of the witnesses' 
testimony so that we can come up with recommendations that can 
be legislatively enacted before the 2010 census.
    Thank you very much, Mr. Chair, and I yield back the 
balance of my time.
    Mr. Clay. Thank you so much, Ms. Clarke.
    Are there any other Members who would like to make an 
opening statement?
    Ms. Jackson-Lee.
    Ms. Jackson-Lee. Mr. Chairman, let me offer my greatest 
appreciation to you and the ranking member and the collective 
body of intellect and commitment and dedication to the cause of 
improving the lives of all Americans.
    The census is a lifeblood of this Nation, and might I take 
particular personal privilege to acknowledge Doctor--I am 
calling him Doctor--but the Honorable Steve Murdock, having 
rooted himself in Texas with a great deal of collaboration with 
a number of my constituents and certainly one of our 
distinguished Senators, Senator Rodney Ellis and Senator Royce 
West, two distinguished State Senators.
    And might I acknowledge as well the witness on panel two 
but particularly the president of a distinguished sorority, Dr. 
Barbara A. McKinzie of Alpha Kappa Alpha, for her presence here 
today in commemoration of this outstanding celebration to take 
place this week.
    Quickly, I want to acknowledge the fact that we do not 
serve if we cannot count, and it is important for the Census 
Bureau to recognize that it must be based upon the rooted 
people in communities. Familiarity does not breed content when 
you are knocking on the doors of neighbors and asking them to 
be counted.
    I want to associate myself with my friend and colleague, 
Congresswoman Clarke. Having experienced the abusiveness of ICE 
raids proliferating across America in substitute of 
comprehensive immigration reform, I know that populations of 
African Americans, Hispanics and Asians will be frightened from 
the very presence of a government entity coming to their door. 
So we must find a way to balance the needs of this country to 
establish who it is.
    Last, let me say that although I congratulate our Majority 
Whip for the funding that we already see in census, let me ask 
Mr. Murdock to be forthright and truthful on the needs of 
resources. You cannot advertise on a thimble amount of money. 
You cannot outreach on a thimble amount of money. You cannot 
get those individuals who are willing to work on a thimble 
amount of money.
    And so, we want to hear from you, to speak up, so that we 
can be in the fight together.
    I think there should be policy changes, Mr. Chairman, and I 
would like to see that students are counted where they live. I 
would like to see people incarcerated counted where they live 
with their grandmama.
    But in any event, let me conclude and thank the chairman. I 
look forward to the witnesses' testimony. Our goal is to 
empower America, to empower America by knowledge, by the count 
and by people being taken care of.
    I yield back my time.
    Mr. Clay. Thank you so much, Ms. Jackson-Lee.
    Just for everyone to know, we will recess at the end of the 
opening statements and then reconvene after the votes.
    Ms. Lee of California.
    Ms. Lee. Thank you very much, Mr. Chairman. I know we only 
have a few minutes before votes. So I will be very brief, but 
let me just thank you and our Majority Whip for these hearings 
and for being ahead of the curve and, hopefully, be able to get 
some answers today.
    This is a very challenging census, we all know. Issues such 
as the foreclosures crisis, the ICE raids, formerly 
incarcerated individuals, all of those issues provide an even 
greater challenge this time.
    Also, I hope we can figure out what happened to the 
additional $200 million plus that was appropriated and that 
there is a plan to utilize those resources in an effective way 
to make sure that all of our undercounted communities are 
counted.
    I came in 1998, so this is my second census here in the 
Congress. Congresswoman Carrie Meek led us last time in a very 
important effort which was very robust, and I know this time 
under your leadership, Mr. Clay, we will make sure that each 
and every individual is counted.
    Thank you again.
    Mr. Clay. Thank you so much, Ms. Lee, and we look forward 
to your participation in this process.
    I now will recognize the Chair of the CBC, Ms. Carolyn 
Kilpatrick of Michigan and thank you so much for participating 
in the hearing.
    Ms. Kilpatrick. Thank you, Mr. Chairman. I just want to 
commend you and the subcommittee for having this hearing.
    This is probably the most important census for all of the 
reasons my colleagues have already mentioned, and I am honored 
to be a part of it and will be with you between meetings all 
afternoon.
    Thank you.
    Mr. Clay. Thank you so much.
    The subcommittee will stand in recess and reconvene at the 
end of these votes. I would estimate about a half an hour. 
Thank you.
    [Recess.]
    Mr. Clay. The subcommittee will come to order. We will 
resume the hearing.
    When we left, we were on opening statements. If there are 
no opening statements--Ms. Watson, would you care to make an 
opening?
    Take your time. Get comfortable. Have a seat.
    Representative Watson is recognized for her opening 
statement.
    Ms. Watson. Mr. Chairman, I appreciate this hearing where 
we will examine the Census Bureau's plan to use the 2010 
integrated communications campaign to help ensure that hard to 
count communities are not disproportionately undercounted.
    It is very, very important as we go into 2010 that we 
follow the guidelines in this integrated program. It is very 
comprehensive, and it would strike a nationwide campaign that 
will use advertising, media relations, specific events and 
other aspects of marketing and communication to reach diverse 
audiences.
    We are so concerned. I represent a district in California, 
the largest State and the first State in the Union to become a 
majority of minorities. Within my own district, I have a large 
number of Armenians, Greeks, Pacific Islanders, Hispanics. I 
have all of Koreatown.
    What usually happens is that people who are in the country 
got to where their loved ones and friends are living with the 
fear that comes along with ICE and the raids and all. You don't 
get an accurate count.
    So what I usually do is I call in the regional census 
director and explain to them how to get a more accurate count. 
You know go to the playgrounds on a Sunday after church. Go to 
the parking lots. Families like to get out with their children. 
So what we are doing is keeping an eye on how we get our people 
counted.
    We are concerned about the budget which is $212 million, 
and we were informed that only $27 million will go to track 
Blacks, Hispanics and so on. So we want to be sure that the 
economically disadvantaged, which is the hardest to count 
group, and nearly 50 percent of the population in this category 
is Black and one-third speaks a language other than English.
    And so, the ethnic enclaves, this is the second highest 
hard to count group: 62 percent are foreign born, 34 percent 
are linguistically isolated and 54 percent speak Spanish, 20 
percent speak a language other than English.
    Now our concern is that the preparation for the 2010 census 
and what their plans are to reduce the undercount. Additional 
concerns are related to the cost overruns within other census 
operations and will they impact on funding for the 
communications campaign.
    Also, we are concerned about the DraftFCB officials, that 
officials have expressed a need for $68 million more to conduct 
a communications campaign that is comparable to the 2000 
campaign. Despite anticipated enumeration challenges within 
hard to count communities, the proposed budget for minority 
outreach within the campaign has been significantly decreased.
    So, Mr. Chairman and our presenters this evening, I am 
looking very forward to hearing what you have to present to us 
and have you answer questions about our concerns.
    I come from an urban district. I mentioned the mix there, 
and I mentioned the fact--I think I did--that we usually have a 
10 percent undercount. That has been historically the case. The 
33rd District, my district in Los Angeles, has 50 percent of 
its population that speaks a language other than English. So we 
have to take that into account.
    We are going to be watching closely, but I again will call 
in the regional director and help give that person guidance as 
to how to do a better count.
    With that, I will give back and thank you very much for the 
time, Mr. Chairman.
    Mr. Clay. Thank you so much, Ms. Watson, and we appreciate 
your vigilance on this issue of the census and your diversity 
of your district.
    If there are no other further opening statements, we will 
now take testimony from the witnesses.
    It is the policy of this committee to swear in all 
witnesses before they testify. Would you please stand and raise 
your right hands?
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that the witnesses 
answered in the affirmative.
    I ask each witness now give a brief summary of their 
testimony. Please limit your summary to 5 minutes, and your 
complete written statement will be included in the hearing 
record.
    Dr. Murdock, thank you for being here. You may start it 
off.

   STATEMENTS OF STEVEN H. MURDOCK, DIRECTOR, BUREAU OF THE 
   CENSUS, U.S. DEPARTMENT OF COMMERCE; AND JEFF TARAKAJIAN, 
      EXECUTIVE VICE PRESIDENT, CLIENT SERVICES, DRAFTFCB

                 STATEMENT OF STEVEN H. MURDOCK

    Mr. Murdock. Thank you. Mr. Chairman, members of the 
committee, thank you for the opportunity to talk to you about 
the Census Bureau's integrated communications plan for the 2010 
census.
    The 2010 census communications campaign builds on the 
success of the census 2000 partnership and marketing campaign 
which helped to reverse a two-decade decline in the national 
response rate. The objectives of the 2010 program, as in 2000, 
are to increase mail response, reduce the differential 
undercount and improve overall accuracy and improve public 
cooperation with enumerators.
    In your letter of invitation, you mentioned the 
communications contract, the Partnership Program and Census in 
Schools. Each of these is an important component of the overall 
communications plan for the 2010 census. None of them can be 
fully successful on their own.
    The communications campaign will be integrated with the 
Census Bureau's decennial census operations, the Partnership 
Program, Census in Schools, national and local media and public 
relations activities to ensure that consistent messages are 
delivered and reinforced at every stage of the process. Success 
of each component is vital to achieving a complete and accurate 
count.
    In September 2007, the Census Bureau awarded its 2010 
communications contract to DraftFCB. DraftFCB is a full service 
marketing communications agency that will team with other 
companies that specialize in reaching minority audiences.
    There are two components to the media outreach effort. 
Using the expertise of DraftFCB, the Census Bureau will mount a 
national media campaign in every broadcast medium to promote 
our messaging for 2010. We will advertise on network television 
and radio, sporting events like the NFL, local and cable 
television, ethnic programming and the Internet.
    The second key component of the media campaign will focus 
on specific minority populations. Ethnic media advertising will 
complement the national campaign, bringing the message to hard 
to count populations.
    Each of DraftFCB's contractors has proven experience 
reaching their target communities, and their efforts will be 
instrumental in addressing the differential undercount.
    The Partnership Program is another key component of our 
communications program. Our partners who have great credibility 
in their communities will vouch for the importance of 
completing the 2010 census to people in inner cities, on Indian 
reservations and rural America and other areas. This will be 
particularly important in areas isolated by language and/or 
geography.
    Our Partnership materials will be available in multiple 
languages, and they will be customizable so that partners can 
tailor the message to their specific communities.
    Unlike census 2000, when promotional materials were only 
available through a Census Bureau partnership specialist, 2010 
materials will be easily accessed through the Internet or as 
printed copy. We also provide needed resources to committed 
partner organizations, through the Partnership Support Program 
as we did in 2000.
    The Census in Schools Programs is another key component of 
the integrated communications plan. The program of 2010 will 
focus on educating children on the importance of participating 
in the census. The goal is to develop strategies, materials and 
messages to reach parents through their children. The current 
plan provides for a program directed at hard to count areas for 
grades K through 6.
    DraftFCB is in the process of awarding a competitive 
contract to an experienced educational marketing firm to help 
implement a strategy with the Census Bureau.
    Another initiative, a language program, will also focus on 
the hard to reach populations. For the first time, we will mail 
about 13 million bilingual Spanish-English questionnaires 
targeted to areas with concentrations of Hispanic population. 
Questionnaires will be available in five languages in addition 
to English, and we will provide language assistance guides in 
more than 50 languages.
    The 2010 census campaign integrates all elements to provide 
better branding of the 2010 census among all segments of the 
population, improved delivery of promotional materials for 
regional and national partnership efforts, a concerted time-
specific delivery plan and provide clear and accurate 
messaging.
    The communications contract has a total life cycle budget 
of $212 million. This is in addition to funds provided for our 
regional and national partnership programs. We are currently 
working with DraftFCB on the budget associated with the various 
components of our integrated communications plan.
    Importantly, budgets for the Partnership Program and the 
communications contract have not been compromised or reduced to 
meet the budgetary requirements of the FDCA contract. Unlike 
any of the Census Bureau other major 2010 contracts, the 
communications contract must be flexible. Our ability to react 
quickly to the fast-changing media environments in 2010 will be 
a key to an effective and wide-reaching outreach campaign.
    The integrated communications plan is being developed with 
active input from our stakeholders around the country and 
throughout the Census Bureau.
    We consider the plan and the budget to be a blueprint that 
will evolve to optimize our resources. We will review and 
adjust the program throughout the census to ensure that our 
resources are applied where they are needed most.
    In closing, let me stress that the communications program 
is of vital importance to the Census Bureau and to me. We are 
counting on Congress, our advisory committees and our 
partnership organizations to work with us to identify 
improvements and to ensure the program meets the needs of 
communities they know best.
    Thank you for the opportunity to testify. I will be happy 
to answer any questions you may have.
    [The prepared statement of Mr. Murdock follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Clay. Thank you so much, Dr. Murdock, and thank you for 
your leadership at the Census Bureau.
    Also, a witness on this panel is Jeff Tarakajian, executive 
vice president of Client Services for DraftFCB, the contractor 
for the 2010 integrated communications campaign.
    Mr. Tarakajian, you may proceed for 5 minutes.

                  STATEMENT OF JEFF TARAKAJIAN

    Mr. Tarakajian. Thank you, Mr. Chairman, members of the 
subcommittee. DraftFCB and our subcontractor partners thank you 
for the opportunity to talk to you today about the integrated 
communications plan for the 2010 census.
    Today, I am accompanied by Laura Marella, vice chairman of 
GlobalHue Latino, our Hispanic partner; Mostapha Saout, 
president of Allied Media; Kevin Williams, senior VP/group 
director at GlobalHue; and Peter DeNunzio, president of 
DraftFCB New York.
    During the last 8 months, our subcontractors and ourselves 
have spent considerable time and focus learning about the 2000 
campaign, the mood of the Nation and its potential impact on 
2010 as well as the needs and recommendations of key 
stakeholders for the 2010 effort.
    In that quest for learning, our subcontractor partners and 
ourselves have visited with the census regional offices. We 
have heard the insights and recommendations of the various 
advisory committees and, importantly, we have conducted primary 
research and analyzed reams of existing studies.
    Learning will be ongoing and continue to guide everything 
we do to build a successful 2010 census overall and to reduce 
the undercount. In fact, learning will guide the campaign 
throughout its life cycle, allowing for the first time real-
time adjustments to the effort to maximize response.
    But, right now, we have a plan that is a work in progress. 
It is a blueprint. Its structure is a solid foundation of mass 
media to motivate mass participation with substantial overlays 
targeted to race and ethnic populations, focused on the hard to 
count. But, importantly, it is an integrated approach that 
follows best practices in our industry and incorporates 
recommendations from the very successful 2000 campaign.
    We have a time line that tracks through the key stages 
where we develop creative materials and media plans for all 
audiences, evaluate the research among its intended audience 
the materials that will appear in the marketplace and provide 
ample occasions and time for stakeholder review and input.
    The process is iterative, and it is cumulative. Right now, 
it is on schedule, and it is on budget.
    We invite oversight and input because it will make the 
campaign better. But, as a result of creating and implementing 
countless similar marketing and communications campaigns, we 
also know what we must do and when we must do it. It has all 
been planned.
    With the census, we also know there is no second chance. No 
delays are possible. So we will deliver a campaign that is on 
time, on budget as well as on point.
    While we can't show you yet how the materials will look or 
what the specific plans that each audience will be comprised of 
or even how much will be spent on each audience, we can give 
you an idea of the experience a real person will have from the 
integrated campaign as he goes through his daily life.
    Meet Derran. He is a 27-year-old single Black mobile which 
is a traditionally undercounted audience. He lives in 
Philadelphia.
    The 2010 census will be his very first. It is a low 
priority in his life. He grew up in an environment that was 
cynical about government. He will be reached by the mass media 
campaign and the Black audience campaign.
    Very importantly, as we get to know him, we will discover 
that beginning in 2009 he will begin to see messages about the 
census, for example, in his barbershop when they start talking 
about census jobs, on Facebook where he reconnects with a buddy 
of his, through historically Black colleges and newspapers, at 
the Linc where the Eagles play in Philadelphia, on a billboard 
on the Schuylkill Expressway, at a Black History Month event in 
Center City, during a March Madness telecast, at church and on 
Grey's Anatomy, etc.
    Beginning in 2009 and peaking in 2010 around the mailings, 
messaging about the census will surround us, building 
awareness, educating and encouraging participation.
    We can also give you a glimpse of some other work we have 
completed so far: interim materials for partnerships and 
recruitment communications to reach people about census jobs in 
their communities.
    Our work has just begun. Our entire team looks forward to 
the discussions, challenges, debates, the back and forths, the 
late nights and weekends we will spend designing and 
implementing what we want to be the most successful campaign 
yet.
    Thank you for the opportunity to speak about this most 
important work that we are doing. I am very happy to answer any 
questions you may have.
    [The prepared statement of Mr. Tarakajian follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Clay. Thank you so much.
    We will begin questioning, and I will defer to Ms. Watson 
and any other Members, and then I will do the final round of 
questioning.
    Ms. Watson, do you have questions?
    Ms. Watson. I understand that you are going to be 
subcontracting. You have affiliates by regions throughout. How 
will you monitor those?
    As you said, Mr. Murdock, that you get one chance at this. 
I guess both of you had said that. How do we monitor? How are 
we sure that we can go back and be sure we can have some kind 
of accuracy in the process?
    I mean how are you going to work on a regional basis with 
your subcontractors?
    Mr. Murdock. Let me answer first, and then him answer from 
his subcontractors.
    We have a management program for every grant or contract we 
have with people that are assigned to administer and to create 
metrics and other factors to be used to assess how well our 
contractors are doing.
    For example, we have a certain. We have goals set up for 
our contracts relative to small and disadvantaged businesses, 
and they have a goal, and they receive greater awards if they 
meet those goals relative to that kind of issue. But we have a 
whole set of factors by which we assess how well they are doing 
and what and therefore can take remedial actions when 
necessary.
    Ms. Watson. I guess, Karen Narasaki, OK. She is the 
executive director of the Asian American Justice Center, 
testified before the subcommittee last year that the Bureau 
needed to improve its work on language translations, and she 
noted that in 2000 the Bureau was late in making critical 
decisions on translation materials and that there was no 
centralized clearinghouse of translated materials. I have that 
problem in my district.
    To what do you attribute the problems and what has the 
Bureau done to resolve them on this round?
    Mr. Murdock. Well, in 2000, we had really very separate 
programs, one that was a media and advertising program and then 
our Partnership program, and the Census Bureau provided most of 
the materials that went out in printed form.
    The integrated part of this contract is to bring those 
together so that materials are available when they are needed 
by groups that may want to promote the census, by our 
partnership specialists who need to pass those out to groups 
that need them for promotion and need to help their members 
understand the census.
    So what has changed and changed significantly is that we 
have an integrated program with all of the timing phased out 
and set out so that we will be much more certain that we will 
not have the problems we had in timing because we did have 
problems.
    We had problems with materials being way too, well, 
actually too late in terms of meeting the needs that we had, 
and that is one of the reasons we went to an integrated program 
that integrated the advertising, the media part of this program 
with the Partnership Program.
    Ms. Watson. Are you assured that you will have like kind?
    I find you are more effective when you go in to do the 
outreach in non-English speaking communities, that you have 
someone that speaks the language, looks like them, has some 
recognition in the community. So are you monitoring to see that 
the enumerators then match the demographics?
    Mr. Murdock. Both in terms of hiring enumerators and 
particularly as we talk about the Partnership Program, this 
group of about 680 people that we will have across the country. 
Their very purpose is to get involvement of local community 
people, religious leaders, elected officials, others who people 
know that can help to spread the message that it is safe to 
respond to the census because we know very well anyone coming 
from the outside has much less credibility to me or to anyone 
than someone you have known and who can.
    When that face that you know says this is something that 
you should do, this is something important for our community, 
it has a much greater meaning than someone who is not familiar 
to the person, and that is really the basis of a lot of the 
success of our Partnership Program.
    Ms. Watson. I want to thank you, Mr. Murdock, for coming to 
the CPC yesterday. As I mentioned to you, I have all of 
Koreatown in my district in Los Angeles. It is the largest 
Korean community in the country. And so, can you tell us about 
the funding?
    You mentioned the funding for African Americans and other 
minorities, probably from African islands and so on. So how 
much funding is being allocated, if you can share that with us, 
to reach people in these Asian communities?
    Mr. Murdock. Well, the final distribution of that is still 
being worked out by the contractor FCB and the subcontractors. 
Some of the initial work that we had showed about a $76 million 
general media. I mean group-wide kind of advertising campaign, 
meaning it was for the generalized population.
    On top of that, because I think it is important to 
understand that we are really talking about kind of a layering 
of the messages, one is there is a general media campaign that 
should appeal to populations of all different groups, and then 
we do have specific subcontractors as my friend here on the 
left indicated that try specifically to look at different 
populations.
    The most recent data I have seen, and this is not 
definitive because it is still being finalized because our plan 
for this program is just now being finalized. We had a draft 
plan earlier. We asked for revisions of that, and now we are 
getting a more definitive plan.
    It showed about 27 million, for example, for Black and 
Hispanic audiences, about 13 for Asian audiences, about 6 for 
American Indian and Alaskan Native, about 2.8 million for 
Puerto Rico, etc. We can provide that information to you.
    Ms. Watson. Good. I was going to ask if we have or can have 
another opportunity to hear about and be briefed on the final 
draft and then have input.
    Mr. Murdock. Certainly. Certainly.
    Ms. Watson. The other suggestion I would like to make, and 
this will be the last question or suggestion, is that 
regionally you meet with some of the minority representatives, 
have your regional people, so that we can have this whole 
process more localized, and we will have input.
    I think our churches could be very, very helpful. In the 
Los Angeles area that I represent, we have the mega churches 
with 30,000 membership, and one Sunday you could reach maybe as 
many as 500,000 people in an announcement. So if you could have 
your regional people meet with us, we could be very helpful to 
you.
    With that, I thank you, Mr. Chairman, for the time.
    Mr. Clay. Thank you, Ms. Watson. Very good suggestions.
    Mr. Murdock. We would welcome that involvement.
    Mr. Clay. Very good.
    Mr. Gonzalez, you are recognized for 5 minutes for 
questioning.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    Dr. Murdock, there are some areas that concern me in my 
opening statement. I am not even going to get into some of 
those because we have some limited time.
    My concern is the diversion of funds. I think we are all 
committed to adequately funding. There are some issues about 
certain requests being made and how we get the money to you, 
but I think that is all going to be resolved.
    But looking to the future and what you are going to be 
utilizing, implementing, I guess I want some assurance that 
some of the things you may be looking at will not take funds 
away from the efforts that Mr. Tarakajian is attempting to do 
through the integrated communications program and so on.
    Let's just start off with we talk about the Internet, using 
the Internet. I know Mr. Tarakajian referenced it as a way of 
communicating the existence and the awareness of the Internet 
and not necessarily using the Internet as a method to respond 
or report or fill out whatever is necessary in the way of 
compliance with the request from the Census Bureau of our 
citizens or non-citizens, whoever is out there.
    So there is a distinction, is there not?
    Mr. Murdock. Yes.
    Mr. Gonzalez. Mr. Tarakajian is talking about really just a 
means of communicating with the Internet, Facebook, MySpace, 
whatever it is. Then I also want to talk about exactly what 
that arrangement is and make a suggestion or two. But there has 
been discussion about the use of the Internet, and I don't know 
whether that has come out of the Senate or not.
    What does that involve? What are we talking about and at 
what stage of development or consideration do we find ourselves 
today?
    Mr. Murdock. Well, as part of our replan effort, we have 
relooked at the option of providing the Internet as an option 
for response. Let me make it very clear that we have not 
finalized our analysis of that, and we are diverting no 
decennial funds at this time toward that process.
    The work that we are doing now is by our IT division which 
is funded out of another part of the Census Bureau, and what we 
are looking at is simply this as another alternative that we 
can provide to people or potentially can provide. When we get 
done with the analysis, we will be glad to come back and report 
that.
    Let me say something about what you said at the beginning. 
There has been, since I came here at least, no diversion of 
funds from this set of enterprises. I will be willing to commit 
to all of you here that, to the best of my power, there will be 
no diversion from these two programs.
    As you know, Representative, I was in Texas for nearly 30 
years working in this area. I very strongly believe in this 
program. I saw the programs, the Partnership Program, etc. work 
very effectively in Texas. I saw it work in the colonias of 
south Texas and increase the response rates not to a perfect 
level but to a level that was certainly much better than what 
we had had in previous censuses.
    So there are no plans, and I commit to you that I have no 
plans for sure to take resources away from this program. I 
think it is a very important program, very critical to the 
census.
    Mr. Gonzalez. I appreciate that there won't be the 
diversion or whatever. It does add an additional layer of 
funding. There is no doubt about that.
    And so, I am just going as to cost-benefit analysis of 
whatever you are going to be doing as you contemplate something 
else, whether it is the Internet or whether it is a 
sweepstakes. I am just concerned about those two.
    Mr. Murdock. Let me make it very clear about those because 
there has been a lot of misunderstanding about the both of 
those. There has been work about incentive programs. Where 
those are is we have provided to the Department of Commerce our 
previous analysis that was done in previous censuses. They are 
looking at this at the Department of Commerce.
    We are diverting no resources at this time and have no 
plans at this time to have anything related to incentives, 
sweepstakes and all the other things that have sometimes been 
covered in the papers.
    The Internet will be provided if it is feasible, if it does 
not mean the deterioration in things such as this program and 
if we find out that it might in fact help us in some 
circumstances if we have some kind of crisis and need to 
provide another way for some people to respond to the census. 
We are not diverting resources from any part of the decennial 
and particularly not from this program to look at either of 
these.
    Mr. Gonzalez. I know it is a sensitive topic, but I think 
that Majority Whip Clyburn referred to it. I think 
Congresswoman Watson referred to it. That is if the real 
objective here is greater participation, we know that in this 
universe of responders that we have a certain segment or sector 
that we really don't have much of a problem with.
    It is really the effort and the concentration of moneys and 
effort and everything else is really in two other categories 
that Congresswoman Watson had already referenced: economically 
disadvantaged and the ethnic enclave too.
    I venture to guess that the advantaged homeowners which 
have the lowest hard to count score, 6, and the highest mail 
return rate, 83 percent, is probably that particular audience 
that you would be reaching if in fact you invest any 
substantial funds in the Internet. I mean that is the way the 
real world works. I am just saying I would hate to get diverted 
to it.
    I love the Internet. We try to utilize it to the extent 
that we can, but I just don't really feel that the amount of 
attention or funds would be a diversion.
    And let me go further as to the reason that we think it 
could be counterproductive. It is just not the undercount. It 
is the overcount, and Whip Clyburn made reference to that. 
There are two ways that this thing works against the 
communities of color: undercounted, also overcounted.
    I think there is real danger on the Internet responses in 
making it even harder for you guys to figure if there is 
actually double and triple reporting.
    Mr. Chairman, I know I have gone over my time, and I am 
hoping that we might have an occasion after this round to maybe 
have a couple of questions afterwards if you would.
    Mr. Clay. We will have time for another round.
    Mr. Murdock. Let me just assure, Representative Gonzalez, 
that we are not going to proceed with anything that endangers 
our ability to get a full and complete count.
    You know there are two things we worry about. We worry 
about the accuracy of the count, which is its completeness, and 
the timeliness of the census. Nothing we are going to do is 
going to endanger either of those.
    We won't do something that makes the risk of getting a late 
census or getting a less accurate census. We are just not going 
to do that.
    Thank you so much.
    Mr. Gonzalez. Thank you, Mr. Chairman.
    Mr. Clay. Thank you, Mr. Gonzalez.
    Representative Clarke, you are recognized for 5 minutes.
    Ms. Clarke. Thank very much, Mr. Chair.
    Dr. Murdock, I have a couple of questions, and let me just 
start with my concern around a PR effort that would rely 
heavily on the insight that Black audiences are highly 
influenced by word of mouth. I don't know what types of focus 
groups or studies you did to complete to support this 
conclusion or what types of nontraditional media forms will be 
used. So maybe you can give us some insight into that.
    But what is your plan to reach Blacks in rural areas?
    Mr. Murdock. Well, in many parts of the country, rural 
areas are uniquely challenging because of the sparsity of 
population and because of lots of other issues that are 
sometimes involved.
    Our Partnership Program is not just one that works in large 
cities. It is one that works in rural areas as well. The intent 
of that program is to go particularly to hard to count areas, 
to become involved with the population, with organizations, 
with churches, with community groups, with elected officials, 
all with the intent of increasing awareness and involving local 
people in the census.
    One of the things that Representative Watson said that is 
very, very true is that local involvement is critical. What we 
try to do with our Partnership Program is not to have a partner 
come in and take the census, not to have that person come in 
and substitute for local people, but in fact to work with local 
people, to empower the local people to get involved in the 
census because that is the census works when people believe in 
it and people get involved in it, and that is a local phenomena 
as much as anything else.
    Ms. Clarke. So, Dr. Murdock, in terms of a PR effort, are 
you expecting that the influence of word of mouth, I guess the 
repetition, would gain the type of affinity with filling out 
the census?
    I am just trying to get a sense because word of mouth can 
work both ways, right?
    Mr. Murdock. Right.
    Ms. Clarke. OK. So?
    Mr. Murdock. If you don't mind, let me ask Mr. Tarakajian 
to go ahead and talk about the particular strategies they are 
using.
    Ms. Clarke. Sure. OK.
    Mr. Tarakajian. Actually, the insight or the strategy about 
word of mouth being important to the Black community came from 
our GlobalHue partner as one of the insights that they brought 
to the table about the Black community.
    I believe that what they are talking about is that there 
are certain segments of the population that are much more 
influenced by person to person communications than by mass 
media communications. The value of that person to person 
communication where there is an affinity, a relationship 
created is very critical. That is really the only way to get 
certain segments of the population to overcome their fears and 
to feel comfortable responding.
    Ms. Clarke. How does that jibe with accuracy because 
oftentimes word of mouth is inaccurate and, if that is used as 
a strategy, is it your layering approach that you have talked 
about in your presentation along with word of mouth?
    Mr. Tarakajian. Yes.
    Ms. Clarke. I am just concerned that we would see that as a 
linchpin for getting people to sign up in the census 
particularly in light of the climate that we live in with 
regard to the invasiveness of government.
    Mr. Tarakajian. Yes. Word of mouth is not the strategy of 
the campaign. It is one tactic among many tactics that we will 
use.
    As I said, it is something that for certain segments of the 
population is very important because mass media or third party 
messages don't really motivate them because they don't 
necessarily trust the third party. But a personal message that 
is generated from someone that they trust carries much more 
weight and carries much more meaning and motivation for them.
    Ms. Clarke. Given the fact that 8 percent of the total 
Black population is born outside of the United States, I notice 
that Creole is the only foreign language in which messages will 
be created for the Black community. Why aren't any continental 
African languages included such as Swahili or a universal 
language such as French?
    Mr. Tarakajian. The language program is more robust really 
than the languages that are going to appear in paid media. 
There 14 languages that would be part of the paid media 
campaign. There are another five languages that would be for 
promotional materials.
    But very importantly, in addition to that, all of the 
partnership promotional materials will be created in what we 
would call a template form so that all of the partners who are 
watching out for the audiences that speak a language other than 
those in the campaign will be able to take those templates and 
translate them into whatever language is necessary. So, really 
what we are doing is being able to open it up to virtually any 
language that anybody needs for those kinds of materials.
    Ms. Clarke. I just wanted to sort of bring, because my time 
is winding down, to your attention that you are talking about 
layered communities in terms of the challenge it is to get 
information to them. We know already that for people in the 
Black community, in particular, Black males, you have been 
under-reporting. Imagine if that Black male spoke another 
language, what the challenge would be in really getting to that 
individual.
    So I just wanted you to be aware of all of those nuances 
and intricacies as you go about rolling out your PR strategy. 
There is going to be some overlay, but you want to make sure 
that it also hits its target.
    Thank you very much, Mr. Chair.
    Mr. Murdock. Let me just comment.
    Mr. Clay. Yes, you may.
    Mr. Murdock. In terms of the languages and in terms of the 
total number of languages available, there will be over 50, and 
Swahili is one of the languages for which there are language 
guides.
    So, in terms of the overall program, obviously we cannot 
provide in every language that now prevails with the groups in 
the United States. We are trying our best, and we are doing 
over 50 different languages, and Swahili is one of them.
    Mr. Clay. Representative Kilpatrick, you are recognized for 
5 minutes.
    Ms. Kilpatrick. Thank you, Mr. Chairman. Thank you again 
for having us this afternoon.
    Dr. Murdock, we talked a bit yesterday, and since then we 
have met with the full Democratic Caucus. I submit to you, to a 
person, all 233 of us are looking forward to working closely 
with the Census Department to get an accurate census.
    We believe it will be more difficult than ever before in 
terms of the lives of Americans when things are happening and 
that we want to be your partners as we get a correct count that 
affects all of our districts, all of our dollars and serves the 
United States of America.
    Mr. Murdock. We appreciate that.
    Ms. Kilpatrick. I serve on the House Appropriations 
Committee. About two or 3 weeks ago, we passed a supplemental 
in the House and the Senate, and the President has now signed 
it. It gives the census an additional $210 million.
    One of the problems we didn't get a chance to talk about 
yesterday but the handheld $600 million computers that have 
been tossed somewhere and now going to paper as we did 10 years 
ago. It is unfortunate, first of all.
    The contract that went to that company, I understand a 
Florida company, some $600 plus million. You only had five or 
six questions that they were supposed to input. Why were they 
thrown out?
    In their proposal, did they not say they could meet the 
challenge? Were you not clear in what you were asking?
    The $210 million, to my understanding, is going to help 
with some enumeration, but this is a tech society. If they were 
not able with the handhelds to connect to a mainframe to print 
out what we needed, why was this company chosen?
    Mr. Murdock. I think, ma'am, let me clarify a couple 
things.
    Ms. Kilpatrick. Please.
    Mr. Murdock. First of all, we are using handhelds in the 
address canvassing part of our program. What I think the 
confusion was is that part of our process is after we have 
received all of the mail responses, and then we have something 
we call non-response followup, and that is when we start 
knocking door to door.
    We did a very careful analysis, a very sobering analysis 
that suggested to us that where we were at that point in time, 
the risks would be significant to stay with trying to do, use 
handhelds in NRFU.
    Ms. Kilpatrick. That is added expense?
    Mr. Murdock. That is the non-response followup. So we are 
using handhelds in the address canvassing. Address canvassing 
is a very key part of the census.
    Ms. Kilpatrick. We are not arguing. We are not arguing. I 
know the process.
    Mr. Murdock. OK.
    Ms. Kilpatrick. I am 60. So I have been through at least 
four of them, right. That is very important. Technology is new, 
and it has been tested and tried for a long time.
    The truth of the matter is Census spent $600 plus million.
    Mr. Murdock. No.
    Ms. Kilpatrick. No? Help me out. Don't tell me the process. 
Tell me about the money.
    Mr. Murdock. OK. We have spent funds on that project, but 
the $600 million was for the total contract if it included the 
NRFU part of the process. So we have not spent $600 million.
    Ms. Kilpatrick. How much have you spent, sir?
    Mr. Murdock. We have spent, I think, about $240 million, 
something like that. We can check and get you an exact number.
    Ms. Kilpatrick. $240 million on a machine we can't use?
    Mr. Murdock. No. We can use the machine on the addressing 
canvassing, ma'am. That is what I am trying. The address 
canvassing is critical because the census is actually a census 
of addresses from which we get households from which we 
identify people.
    This process will allow us to identify those addresses, to 
input them electronically, to get GPS coordinates for those 
programs that will allow us to make sure that we know exactly 
where each location is.
    Ms. Kilpatrick. OK. My time is short.
    Mr. Murdock. We are using.
    Ms. Kilpatrick. So the $240 that we spent, are they still 
getting 260 more, the same company or is that the end of their 
contract?
    Mr. Murdock. We are in the process of replan. We will be 
receiving from the contractor a proposal or cost proposal 
tomorrow, and then we will. On the 15th, I am sorry. We will 
then be negotiating with them for the additional parts of the 
process that they will be doing.
    Ms. Kilpatrick. More dollars?
    Mr. Murdock. They are doing operational control systems.
    Ms. Kilpatrick. You know you are talking over my head in 
terms of the technical.
    Mr. Murdock. I am sorry.
    Ms. Kilpatrick. You know money, stay right there, in the 
program.
    Mr. Murdock. OK.
    Ms. Kilpatrick. We will get to that too because we want to 
be a part of it, but I am trying to understand. In a contract 
that started out at $600 million, we have only spent $240, is 
that right?
    Mr. Murdock. At this point, yes.
    Ms. Kilpatrick. It is my understanding that those computers 
that we bought are not longer useful? If it is wrong, just say, 
no, that is not right.
    Mr. Murdock. No, that is not right.
    Ms. Kilpatrick. OK. Then come on, you can say; 5 minutes 
and we are catching planes. Thursday is a bad day for hearings, 
but it was important for us to be here to try to begin the 
conversation, and we want to continue. But we need the correct 
information.
    As we said yesterday, if you would supply it to us because 
we don't believe everything we read in the paper either. But 
unless we hear from the real source, and you are that source 
here, Dr. Murdock, we have to go with what we hear. What we are 
hearing is that we spent $610 million and that company is about 
to get another billion and they didn't complete the first 
assignment.
    Mr. Murdock. That is not correct.
    Ms. Kilpatrick. OK.
    Mr. Murdock. We are negotiating the contract for their 
remaining from now. That will be completed by August 15th. I 
can't tell you exactly what that is, but it is not going to be 
in the range of $1 billion more.
    Ms. Kilpatrick. Did they fulfill the first obligation?
    Mr. Murdock. Pardon?
    Ms. Kilpatrick. Did they fulfill the first obligation?
    Mr. Murdock. That process is still being done, and they are 
working to complete. It was not supposed to be done at this 
point in time. They are making progress on that.
    Ms. Kilpatrick. So, they have been smeared unjustly, it 
sounds like to me.
    Mr. Murdock. Well, there were problems on both sides. As we 
said in previous testimony, there were problems on our part in 
terms of providing as clear requirements as we might have. 
There were also difficulties in the performance of the 
handhelds that they are addressing now, and we had problems 
with handhelds that didn't operate correctly and didn't operate 
in the way that we needed them to. That is being addressed.
    Ms. Kilpatrick. Last question, was that a competitive bid 
and were there other companies bidding for it?
    Mr. Murdock. Absolutely. Absolutely, it was a competitive 
bid.
    Ms. Kilpatrick. We look forward to working with you.
    Mr. Murdock. Thank you.
    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Mr. Clay. Thank you so much, Madam Chair.
    Dr. Murdock, DraftFCB officials claim they need an 
additional $68 million to conduct a communications campaign 
that is comparable to the 2000 campaign. They believe the 
current budget of $207 million does not take into account 
several factors including media inflation that is predicted to 
be a minimum of 35 percent, the increasing degree of difficulty 
caused by a more diverse population, continuing fragmentation 
of the media marketplace and declining response rates.
    Does the Bureau believe the $207 million is sufficient to 
conduct a communications campaign that significantly reduces 
the undercount and, if so, how? If not, why and how does the 
Bureau plan to address these deficiencies?
    Mr. Murdock. We believe that $212. Now understand when we 
look at this full program, there is the communications part of 
it, which is $212 million, and then there are partnership 
programs that are not included in that $212 million.
    We believe what we have is sufficient for where we are at 
this point in the process, but let me tell you that this is an 
evolving process. It is one that we are now just finalizing the 
plans.
    If in the course of the process we see that we need to look 
at alternatives, we will be back and cooperating with Commerce, 
with you as stakeholders and others. We will look at what we 
need to do to obtain appropriate resources for this program.
    Mr. Clay. Thank you for that response.
    According to the Bureau's estimates, it undercounted 
African Americans by 628,000, Hispanics by 248,000, Hawaiian or 
Pacific Islanders by 13,000 and the American Indian and Native 
Alaskans by 10,000. There are some in the statistical community 
who believe the actual undercounts are much higher.
    Please tell us the Bureau's specific plans for reducing the 
undercount, given the fact that you will not have the handheld 
computing devices to conduct non-response followup and you have 
lowered your response rate.
    Mr. Murdock. The handhelds are not really that significant 
as you look at the response rate. That is we are going to be 
doing a program that we did last time that gave us the most 
successful census ever which was a paper-based non-response 
followup. This is a data collection effort, and it is 
necessarily substantially improved in terms of accuracy as a 
result of the use of the handheld.
    Mr. Clay. OK.
    Mr. Tarakajian, has the Bureau or Commerce Department asked 
DraftFCB to set aside funds for the sweepstakes?
    Mr. Tarakajian. No.
    Mr. Clay. No? They haven't approached you about it all and 
you all have not set aside funds?
    Mr. Tarakajian. No. They haven't asked us to, and we have 
not done that.
    Mr. Clay. And you don't plan on doing it?
    Mr. Tarakajian. No.
    Mr. Clay. OK. All right. I will recognize Ms. Jackson-Lee 
for 5 minutes.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman.
    Let me ask Mr. Murdock, and this may have been asked 
answered, but please don't hesitate to expand on your answer.
    When we were in an earlier meeting, you spoke to us about 
the partnership which I think has a great deal of value to it, 
partnership specialists, but our recollection is that they were 
thinly spread in the past census. And so, my question is do you 
intend to expand that program extensively?
    Where do you intend to hire from for those particular 
individuals who will reach out to different partners? Do you 
have a plan to recruit these partners from the under-served, 
under-utilized areas?
    Mr. Murdock. Well, let me begin by saying that we will have 
about the same number as we had in 2000. That is about 680 to 
690 persons.
    They are recruited by our regions, in our regions. 
Throughout those regions, what is attempted, we attempt to do 
is find people from individual communities, from areas within 
the region that represent different ethnic and other kinds of 
groups, racial groups, and to get them hired to be part of the 
Partnership program because we do know that what works best in 
terms of getting responses is people from local areas that 
people identify, that people come to trust and know that they 
are part of their communities and they understand the context 
from which they are responding to the census or any other 
matters.
    We recruit locally, and our regions, our regional directors 
are charged with ensuring that we represent the groups in their 
regions.
    Ms. Jackson-Lee. Mr. Murdock, is that solely budget-
directed or is there a chain of command where the Secretary of 
Commerce is aware of the efforts and has indicated that 680, 
690 is what we need?
    Mr. Murdock. No, that was not. That was decided in a 
planning effort by the Census Bureau. It was not decided by the 
Department of Commerce.
    Ms. Jackson-Lee. Well, let me just suggest are you saying 
that is the number for the Nation?
    Mr. Murdock. For the Nation, yes, ma'am.
    Ms. Jackson-Lee. Well, the GAO indicated that you were 
thinly, that you were stretched pretty far in 2000. If we are 
going to up the numbers of the undercount and you, yourself, 
have indicated that these are effective tools, wouldn't it be 
appropriate to represent to the Census Bureau to go back and 
reconsider that number?
    Here we are, 10 years later, and we have under 1,000 in 
terms of community partners in a Nation that is 300 million 
plus?
    Mr. Murdock. Well, understand that we are not talking about 
community partners. We are talking about specialists working to 
do that.
    Ms. Jackson-Lee. Absolutely.
    Mr. Murdock. OK. I am sorry.
    Ms. Jackson-Lee. Absolutely, and I appreciate what you are 
saying. I absolutely know that.
    If you are encouraging elected officials, non-profits and 
interested persons to go out and find as many community 
partners as possible, then those specialists who are 
outreaching to them certainly, I believe, need to be an 
increased number.
    I would ask your consideration for that and tell me what 
the procedure is. If the Census Bureau made that determination, 
what is the basis of reconsidering and upping the numbers?
    Mr. Murdock. What I said in just, I think, a moment before 
you came in, ma'am was that this is a program which is simply 
starting, which is simply beginning. We are in the planning 
stages.
    As we look at this program, as we look at it, if we see 
that there are needs to take additional steps, we will work 
Commerce. We will work with our partners. We will work with 
Congress to find the appropriate resources, and that includes 
the appropriate number of people.
    Ms. Jackson-Lee. Well, Mr. Murdock, I am going to 
officially request that you consider that. You, obviously, are 
committed. We realize that. We think you need as much help as 
possible.
    Let me try to quickly go to I assume someone has tackled 
this last name while I was not here, and so what is your last 
name, sir?
    Mr. Tarakajian. Tarakajian.
    Ms. Jackson-Lee. Tarakajian. Thank you, Mr. Tarakajian.
    Let me ask you, did you have a contract in 2000?
    Mr. Tarakajian. No, we did not.
    Ms. Jackson-Lee. Let me tell you that it was a major 
debacle wrapped in insensitivity.
    And so, my question to you is we have met some of the 
subcontractors, but what special emphasis are you going to 
utilize, one, to prioritize underserved areas but particularly 
culturally distinctive areas?
    Do you have in your mind, beyond your subcontractors, a 
format for reaching the media outlets that are most relevant to 
certain populations, whether it be Hispanic, African American 
or Asian, and how important do you place that in your plan?
    Mr. Tarakajian. A lot of the media outlets, I believe, that 
you talk about are local media outlets as opposed to national 
media outlets.
    While right now, the plan is just that, it is a plan as 
opposed to something that is etched in granite, almost 50 
percent, 45 percent of the money of the budget that we have is 
allocated to local media outlets as opposed to national media 
outlets. So the infrastructure is there to go about creating 
that.
    We are doing outreach to small businesses as part of our 
commitment on this plan, to make sure that we learn about and 
that we give local media outlets, particularly the kinds that 
you, I think, are referring to every opportunity to become part 
of this contract. In addition, we are relying on our 
subcontractors who have expertise in this area to help us to 
find those local media outlets.
    Then, fourth, the partnership effort is another source of 
information to come back to us in terms of what some of those 
outlets are and how they could be utilized for the benefit of 
the census campaign.
    Ms. Jackson-Lee. What is your overall budget?
    Mr. Tarakajian. The overall budget that we began with was 
$207 million. We were recently informed that it is 
$212,100,000.
    Ms. Jackson-Lee. Is that for the whole media outreach?
    Mr. Tarakajian. That is for the entire campaign.
    Ms. Jackson-Lee. Right, which includes the media and buying 
time? Is that buying time too or is that separate?
    Mr. Tarakajian. No. That includes buying time as well.
    Ms. Jackson-Lee. Are you understanding that you just got an 
increase?
    Mr. Tarakajian. Yes, to $212.
    Ms. Jackson-Lee. What does that take the number up to?
    Mr. Tarakajian. Two hundred and twelve million, one hundred 
thousand.
    Ms. Jackson-Lee. Do you intend to raise the amount that is 
being spent in the African American community?
    Mr. Tarakajian. As a result of the increase, yes.
    Ms. Jackson-Lee. I hope it is going to be increased beyond 
the present number. To me, it looks like that number does not 
have any relation to reality.
    Mr. Tarakajian. We have asked our African American partner 
to plan at a higher level based on the 212,100,000. In 
addition, the moneys that you are referring to that are 
currently being planned are only the moneys that are in the 
media portion of the outreach to Blacks. There is money in 
promotional materials which are partnership materials, 
fulfillment, things of that nature that are also moneys that 
will impact the Black audience.
    Ms. Jackson-Lee. Well, let me thank the chairman for his 
courtesies.
    I would suggest that you start looking upwards of $40 
million plus in terms of how you relate to communities that 
heretofore have been unreached and had such high numbers of 
undercount and work with minority papers, radio stations but 
also contractors because I can assure you that they have the 
craft down well in how to reach people in hard to reach places.
    With that, Mr. Chairman, I yield back.
    Mr. Clay. Thank you so much for that targeted questioning, 
Ms. Jackson. I appreciate your participation in this hearing.
    Mr. Gonzalez, you had one other question?
    Mr. Gonzalez. Yes, sir, and thank you for your indulgence, 
Mr. Chairman.
    Any additional costs or any glitch or in the census has a 
greater impact on the hard to count population, and I hope that 
we can all agree on that. It is a bad situation that we start 
off with, and anything that goes wrong has a disparate impact.
    So I want to discuss fingerprinting and then some of the 
potential negative consequences which may be a noble goal to 
accomplish here on the fingerprinting. If you are going to 
fingerprint all the individuals that are out there basically 
hired and involved in the data collection, one, it is going to 
be cost but, two, it is just going to be the logistics of doing 
that.
    The FBI is going to be charged with that. I can assure you 
from my past experiences with other departments and agencies, 
there is just no way it is going to be done without doing 
something for the FBI to accommodate that kind of a task.
    So I want to know where you are on the fingerprinting issue 
and then any concerns that you have, one, as I said, as far as 
the delay that could be. But even going beyond that, is there 
some other impact as we hire individuals that we feel will be 
more welcomed in certain neighborhoods that have an aversion to 
anyone who is associated with the government?
    Mr. Murdock. Let me explain where we are in fingerprinting 
and why we are there. We have decided we have to do 
fingerprinting, and here are the pros and cons.
    The cons are clearly it is expensive. We are concerned as 
you are that there will be people who will be concerned about 
involvement with the census as a result of that process. It is 
a process as well that is a difficult one for us but one that 
we will do.
    Where the FBI will come in is that after we complete the 
fingerprints, they will do the assessment to see if there is 
any record of problems with the individuals whose fingerprints 
we have sent to them.
    But here is the other side. The other side is that we have 
to be very careful about the security and safety of American 
people.
    It is the law of the land. We sought with the agencies that 
are responsible for this. OPM said you have to do 
fingerprinting.
    We went to the FBI, and the FBI last time gave us an 
exemption because they could not process the forms. They tell 
us this time they can process the forms. They told us ways that 
we could get exemptions under certain circumstances, but they 
ended their letter by saying, we highly recommend that you do 
fingerprinting.
    The difficulty we have and I have as the Census Bureau 
Director is if I or my successor were to be in a situation 
where there was an event. There is a very low probability. We 
have had very low probabilities of any difficulties in the 
past, and so it is another factor that makes it difficult to 
make this decision.
    But if there were an event at the beginning of the census 
and you had to explain to the public, to the media, to others 
that, first of all, you had not complied with the letter of the 
law, that you had gone against the advice of the chief law 
enforcement agency of the United States and other advice from 
other appropriate parties, I think it would be disastrous for 
the Census Bureau Director and others.
    Now there are a variety of ways that could be addressed, 
but it can't be. I don't see a way for us to address it as a 
Federal agency, as a Federal entity unless we are given some 
kind of exemption of some kind. We really don't have a choice, 
I believe, as a responsible party.
    Mr. Gonzalez. The other thing is, Director Murdock, the FBI 
is going to be able to perform as they are promising on a 
timely basis and it is not going to result in any delays. I 
mean this would be disastrous.
    The whole thing is that you are going to have to turn 
around midstream on this thing when the FBI tells you they 
can't meet certain deadlines. You have to have your people out 
there. So then you are going to tell the American people, well, 
we were going to do this to safeguard you, but circumstances 
are such that we just can't. That troubles me.
    So I think we do need to start off with what I think might 
be, I hope, an accurate statement. Have we occasioned certain 
problems in the past because we did not fingerprint 
individuals?
    Mr. Murdock. It is a very low incidence.
    Mr. Gonzalez. I have heard two or three or four. Now how 
many?
    Mr. Murdock. We had about four cases in the last census, 
very, very low. Three of the cases, they were dismissed or 
acquitted. In one case, there was a plea bargain down to a 
lesser offence. So, yes, it is a very low probability.
    Mr. Gonzalez. These were individuals that had previous 
criminal records of some sort that we missed and then they went 
and allegedly committed a criminal offense of some sort?
    Mr. Murdock. These are persons who we found nothing on them 
when we did what we did in the past which was name check. Name 
check, if it came up problematic, then we did fingerprinting 
for those individuals.
    But yes, I mean we fully agree. In terms of those three 
factors are ones that would suggest you not do fingerprinting.
    On the other hand, the liability, the potential harm for 
the census if you were found to be operating, not obeying the 
law of the land against the advice of the chief law enforcement 
agency of the United States and against the advice of OPM, is 
one that is a very serious administrative issue for a director.
    Mr. Gonzalez. I understand. I mean it is hard for me or for 
you to argue that basic proposition. I am just saying as a 
practical matter, can you do it?
    Second, again, you go into cost-benefit.
    Three, is it really a false sense of security that you are 
giving the American people? I think that it is, but that is 
just an argument for later.
    I am just saying if that is what we are going to do, let's 
make sure that we fund it. No. 2, you have some deadlines now 
that have been added as a result of this particular 
consideration. And so, whatever help you need we are going to 
be here for it, but I have a serious question about the 
necessity.
    Mr. Murdock. Well, we absolutely understand. We have looked 
at this very thoroughly. In a perfect world, we would have 
liked not to have had this requirement if you could ensure the 
safety and security of the American people, if we could have 
been in compliance with the law.
    We certainly have issues and have concerns about some of 
the elements that you have said. We have repeatedly asked the 
question, can these forms be processed, and we are assured that 
they are, that they can. We have to go, I think, on a good 
faith effort that when an agency tells us they can do that, 
they can do it.
    Mr. Gonzalez. Don't be surprised.
    I yield back.
    Mr. Clay. Thank you so much, Mr. Gonzalez.
    I want to thank this panel, Mr. Tarakajian and Dr. Murdock, 
for your testimony today. You are dismissed.
    We will call up the second panel now, and I will swear them 
in.
    We now hear from panel two and welcome to the three of you. 
Thank you for being here.
    Our first witness will be Dr. Roderick Harrison, director 
of the DataBank at the Joint Center for Political and Economic 
Studies. Welcome, Dr. Harrison.
    The next witness will be Dr. Barbara A. McKinzie, Chair of 
the 2010 Census Subcommittee of the National Pan-Hellenic 
Council and international president of Alpha Kappa Alpha 
Sorority, Inc., which I must note that Representative Watson is 
a member of that organization as well as my wife, Ivie Clay.
    Our final witness on the panel will be David Lange, general 
manager of Scholastics Marketing Partners, Scholastic, Inc.
    Welcome to all three of you all.
    Ms. Watson. Mr. Chairman, a point of personal privilege.
    Mr. Clay. Ms. Watson, please.
    Ms. Watson. May I, again, introduce one of our 
distinguished, esteemed witnesses, the Honorable, and I am 
going to call her Honorable because she is our Grand Basileus, 
the national president of the 300-member Alpha Kappa Alpha 
Sorority which will be celebrating its 100th birthday here in 
Washington, DC, beginning tomorrow night and running through 
next week.
    I am proud to say I am a member along with my erstwhile 
colleague on my left, and she can probably make remarks too, 
but Representative Jackson-Lee and myself are so proud to have 
you here.
    I just want to announce to everybody that all next week you 
are going to see the color she has on, green, and pink. It will 
look like a flower garden of green and pink because we are 
expecting up to 25,000 members of the Pan-Hellenic Council, and 
we are so proud to say that we were the first African American 
Greek organization formed right here in Washington, DC, at 
Howard University. So you will hear a lot from the pink and 
green Alpha Kappa Alpha Sorority which was the first, and this 
Grand Basileus. So, welcome.
    Our other witnesses are distinguished too, but I had to 
point out that this is a point in history for us, our sorority, 
and welcome.
    Mr. Clay. Thank you so much, Ms. Watson.
    Let me also point out that my mother-in-law and my wife, 
and they tell me that my 14-year-old daughter will be AKA also. 
[Laughter.]
    Ms. Jackson-Lee.
    Ms. Jackson-Lee. There is certainly no kinder chairman than 
Mr. Clay at this moment.
    Allow me as well to welcome Dr. McKinzie, our Grand 
Basileus, our president of an organization that combines the 
character-building and challenge for leadership as well as the 
record of service.
    As the planned program describes this coming week, for 
those of you who will be here in Washington, it will be a 
happening that you have never experienced before. Many look 
forward, Mr. Chairman, to the inaugural parade, but let me 
suggest to you that on a certain day this week all of 
Washington will come to a standstill because the ladies 
represented by Dr. McKinzie will take to Pennsylvania Avenue 
like you have never seen it before.
    Whatever votes may be occurring on that time, count Sheila 
Jackson-Lee and Diane Watson and Eddie Bernice Johnson missing, 
absent, because we will join the throngs of public servants and 
leaders of high character with this great and wonderful 
sorority that was founded, as my dear friend and colleague has 
said, here in Washington, DC, with seven sisters. She is 
nodding her head, seven sisters, and I think that is a symbolic 
number.
    I thank the chairman for allowing me to welcome you but 
also to express to those in the audience and for the record 
that we are grateful for your service and leadership but, more 
importantly, for you to take the time out to explain to us 
about the 2010 Census Committee.
    I know the role that our sorority will play in making sure 
the undercounted will never be undercounted again and that 2010 
will be a new moment in America's history on ensuring the 
counting and the securing of good health and quality of life 
for all Americans.
    I thank you, Mr. Chairman, for allowing me to acknowledge 
Dr. Barbara McKinzie.
    Mr. Clay. Thank you so much, Ms. Jackson-Lee.
    Just as a point of interest, in 2010, my hometown will host 
the sorority, in St. Louis, MO in 2010.
    It is the policy of this committee to swear in all 
witnesses. I would like to ask all witnesses to please stand 
and raise your right hands.
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that the witnesses 
answered in the affirmative.
    We will begin with Dr. Harrison. You are recognized for 5 
minutes.

  STATEMENTS OF RODERICK HARRISON, DIRECTOR, DATABANK, JOINT 
  CENTER FOR POLITICAL AND ECONOMICS STUDIES; DR. BARBARA A. 
    MCKINZIE, CHAIR, 2010 CENSUS SUBCOMMITTEE, NATIONAL PAN-
    HELLENIC COUNCIL; AND DAVID J. LANGE, GENERAL MANAGER, 
        SCHOLASTICS MARKETING PARTNERS, SCHOLASTIC, INC.

                 STATEMENT OF RODERICK HARRISON

    Mr. Harrison. Thank you very much for the invitation to 
attend this, and I will try to be very brief. I think much of 
what I had in the written testimony has already been mentioned 
more effectively by some of the Representatives in their 
statements.
    There also has been an undercount. We didn't really begin 
to measure it until the 1940's when there were more people 
showing up through the conscription system, the draft for World 
War II that didn't get counted in the 1940 census. There seemed 
to be, for example, about a 13 percent undercount of Blacks in 
the draft age, male draft age population. So that is the 
beginning of some of the modern efforts to measure the 
undercount.
    From 1940 on through the 2000 census, the principle method 
for estimating the undercount has been demographic analysis. 
That is comparing census numbers with population estimates 
based on births, deaths, immigration.
    In 1990, the Bureau developed a second method, a dual 
estimation method based on a post-enumeration survey in which 
170,000 households, housing units in about 5,400 census blocks 
were sampled and matched the records of the people in these 
samples back to their census returns. If they did not have a 
census return to match it to, that meant that the count had 
missed them.
    So that is where we get the counts--it has been mentioned 
in several things of the things--of the numbers of people that 
the census missed.
    The census also does double-count, triple-count, usually 
double-count other people who turn in two forms, report 
themselves, a relative reports them still in their household. 
This is particularly true of college students and others. That 
is the overcount.
    The net undercount, then the overcount is subtracted.
    The point was made very effectively by Representative 
Clyburn. I would just underscore that although that balances 
out arithmetically and arithmetically it is important that it 
does balance out for purposes of apportionment, you cannot 
balance the characteristics of people who are missed with the 
characteristics of people who are double-counted. They are 
usually very different.
    So, even if you are getting something that is, ``good 
enough for apportionment purposes,'' you are getting data that 
is weaker than we could possibly want for understanding 
characteristics, needs, etc. with these populations.
    The good news is that the 2000 census came very close to 
eliminating the undercount. The initial statistics that people 
have been citing, missing about 1.6 percent of the population, 
1.2 percent of the population down from 1.6, this was the 
initial estimates on which the decision to not adjust was 
based.
    In fact, because demographic analysis suggested that the 
undercount was much smaller and that perhaps there had been an 
overcount, these analyses were redone through very complicated 
things, and the Bureau's final numbers suggest an overcount of 
the population in the 2000 census, an overcount of 1.9 million. 
The revised undercount for Blacks was 1.8 percent down from 2.2 
percent undercount, net undercount. The undercount for 
Hispanics fell to 0.71, for American Indians on reservations, a 
net overcount of 0.88, both of which are not significantly 
different from zero.
    So, as far as a statistician can get you, you are getting 
as close to an elimination of the undercount except for the 
Black population in 2000 as you can possibly get.
    Now the estimates that are used to measure are frankly you 
don't want to look into the sausage factory too closely. Again, 
I think the key point is the number might look good, but it is 
balancing overcounts and undercounts which does not address 
some of the concerns here.
    So I think the question really is why was the 2000 census 
so successful relative to others? What do you need to do again 
that might, may or may not be happening now to do it?
    Some of the things that should be happening right now: the 
address lists, the use of the handhelds to collect addresses. 
Half of the undercount is missed housing units. So working with 
local officials to correctly identify units and the other thing 
that partners have to be concerned with is a lot of the missed 
units are converted garages, a subdivided apartment, illegal, 
that have not been registered in the permit.
    So part of the message, if there is a message, you can 
trust the census. It is not going to get into your immigration 
status, your status on programs. Just as important is 
convincing people who may be renting out a garage that in fact 
they need to get the form to them.
    So working with local officials on completing the address 
lists. Getting as complete a list of housing units as possible.
    Sending that massive army, 100,000 additional enumerators 
were sent to hard to enumerate areas in census 2000. You are 
talking about you have your surge in Iraq. You, essentially, 
need your surge in here.
    Then the partnerships, the evidence is that the 
partnerships were particularly successful for the Black 
population, less successful for language populations. I think 
that is in part some of the complexities in not just getting 
out the count but explaining to people who they should report. 
There is going to need to be a lot of training of the partners 
in that.
    There were 140,000 partners in 2000.
    Mr. Clay. Dr. Harrison, let me stop you there. You have 
gone over your 5 minutes, and we will get back to you in the 
question period. But thank you.
    Mr. Harrison. Yes.
    [The prepared statement of Mr. Harrison follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Dr. McKinzie, you may proceed.

                STATEMENT OF BARBARA A. MCKINZIE

    Ms. McKinzie. Thank you, Chairman Clay, other distinguished 
members of the panel.
    It is a pleasure to be able to share thoughts with the 
members of this elite group about the leaders and members of 
the National Pan-Hellenic Council regarding the 2010 Census 
Partnership Program.
    The National Pan-Hellenic Council was founded here in 
Washington, DC, in 1930. It consists of nine major fraternities 
and sororities, predominantly African American.
    We have nearly 2,000,000 members and more than 6,000 
chapters. Many African American leaders are among our members, 
and we thank the acknowledgment of two of our personal members.
    But our long-held spirited tradition of public service led 
us to participate in 2000 census and calls our participation in 
the 2010 census.
    In the past, our communities have been difficult to fully 
count because of fear, apathy and other comments that have 
already been made, and I won't be repetitive. Even today, 
though, amidst a national housing crisis, some African 
Americans feel their needs will never be met in America, and we 
have concern regarding the accuracy of that count due to the 
impact of this current crisis.
    When these skeptics receive, though, positive feedback from 
neighbors and leaders and friends that they know, they are far 
more likely to fully participate. This was the contribution 
that we were able to make in 2000 census, and it is our 
commitment to do so in 2010.
    We were deeply involved in 2000 in the Partnership Program. 
We gave it a high priority. When it was over, we looked back to 
identify what had worked best and what we learned from what we 
had done.
    Three things I would like to highlight: We learned that we 
provided the census with trusted access to African American 
communities throughout the Nation and throughout our 
leadership, through our nearly 2 million college-trained 
educated members.
    We also learned that our time-tested and proven 
infrastructure of chapters and members proved to be invaluable 
not only in the initial count but in the recount. Many of our 
members went all out to use their networks to support this 
effort.
    We also took time to identify aspects of the program that 
we thought could be improved from what we learned in 2000: We 
learned that we needed to start most things much earlier than 
we had. There was a need for increased program funding. We 
needed to diminish duplicative efforts particularly as it 
related to partners who might have similar synergies and could 
strategically and tactically do things together. We also knew 
that we needed to increase the Pan-Hellenic involvement of 
member organizations and devise more ways to efficiently use 
the full range of proven information technology.
    As we began work on the 2010 census, there are three 
principles that the Bureau has adopted that should be fully 
implemented, we believe, in this partnership program: One, the 
2010 census integrated communications campaign urges all of us 
to cultivate a large and diverse group of trusted voices within 
the African American community and act through specific 
outreach efforts.
    Another is that this group has said, to assure full 
participation in the census, the effort must be community 
focused, high spirited and positively influenced by word of 
mouth communication.
    Finally, the Partnership Program itself has noted that 
partner organizations have the unique ability to serve as 
advocates.
    We went further in identifying the best practices and 
issues that we felt we could share with you in the form of 
recommendations, principles that the Bureau has articulated to 
guide the full enumeration of the 2010 census. The following 
recommendations we present: We need to better coordinate the 
efforts of all partnership organizations across the spectrum if 
we are going to be truly effective.
    We need a national 2010 census engagement project for both 
the National Pan-Hellenic Council organizations and others to 
increase our effectiveness in ensuring an accurate count, in 
particular, of African Americans. That project could support a 
more structured Pan-Hellenic Council involvement, more 
concentrated efforts, better resource management for 
organizations and the Bureau, more effective assistance with 
other 2010 initiatives such as the non-response followup, 
recruitment of census staff, access to minority small 
businesses, work with elementary and secondary schools, 
involvement of minority-oriented advertising agencies, more 
intense utilization of National Pan-Hellenic Council networks 
and, more importantly, at the end of this process, better 
metrics to monitor major aspects of the effort as it is 
underway.
    Beyond these improvements, the Census Bureau must more 
broadly and deeply involve community-based organizations and 
leaders to be successful in 2010.
    We heard earlier the efforts that are planned. What we 
didn't hear is the execution. We need to work together on these 
issues to ensure a successful census in 2010 including a full 
count of African Americans.
    With that, we would like to thank you for the opportunity, 
Mr. Chairman and other distinguished panels, to share our 
thoughts.
    [The prepared statement of Ms. McKinzie follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Dr. McKinzie.
    Mr. Lange, you are recognized for 5 minutes.

                  STATEMENT OF DAVID J. LANGE

    Mr. Lange. Chairman Clay and members of the subcommittee, I 
am the general manager of Scholastic in School Solutions at 
Scholastic, Inc. and, perhaps more importantly, I was the 
project director for the prototype of Census in Schools for the 
1998 census dress rehearsal and for the subsequent rollout of 
Census in Schools for 2000.
    On behalf of Scholastic, I thank the subcommittee for 
inviting me to testify today, and we greatly appreciate the 
subcommittee's ongoing interest in the Census in Schools 
program.
    Founded in 1920, Scholastic is a global children's 
publishing, education and media company dedicated to helping 
children around the world to read and learn. Scholastic is 
committed to helping teachers by producing quality 
instructional materials that reach 97 percent of schools across 
the Nation. Additionally, our Web site hosts over 2 million 
unique teacher visitors each month.
    For the 1998 census dress rehearsal, Scholastic was engaged 
to help develop and implement a prototype program in three test 
sites that would both enlist our Nation's schools in promoting 
participation in the census and provide quality educational 
materials to teachers.
    The Census in Schools Program was conceived to support 
census 2000's proposed promotional outreach to communities with 
traditionally low response rates and hard to count populations 
and to reduce children as a significant area of undercount. 
Initially, 30 percent of elementary school teachers and high 
school math and social studies teachers nationwide were 
conducted in order to reach the target populations.
    As the program evolved and obtained supplemental funding, 
its objectives and scope expanded to include all 50 States, the 
District of Columbia, Puerto Rico, island territories as well 
as tribal and Bureau of Indian Affairs schools. In addition, 
what was initially envisioned as a program for K-12 schools was 
expanded to include Head Start, pre-K programs and adult 
education programs for English language learners.
    As the scope of the program expanded, over 110 unique 
components were produced. Principals, parent-teacher 
organizations and teachers in nearly every school received CIS 
materials that included information for families in six 
languages.
    The nucleus of the program consisted of three sets of 
teaching kits spanning grades K through 12. Each kit contained 
a giant map, a teaching guide with lesson plans reflecting 
national curriculum standards. Teachers also received a class 
set of student take-home materials that conveyed to parents the 
importance of completing the census form.
    Originally, the plan was to distribute 200,000 kits. 
Ultimately, though, 1.6 million teaching kits were distributed 
by Scholastic.
    Census in Schools was an important part of the overall 
effectiveness of the census 2000 campaign. Where trend 
projections indicated a 55 percent response rate for the census 
2000 form, the actual response rate was 67 percent. This was 
the first ever increase in the response rate, yielding 
financial savings by reducing the need to send human 
enumerators to non-responding households.
    Submitted for the record are three survey reports that 
demonstrate the effectiveness of the Census in Schools Program. 
Highlights from these surveys report that in the 1998 South 
Carolina dress rehearsal, 51 percent of parents learned about 
the census from either talking with their school age child or 
information their child brought home from school.
    Overall, in post-program evaluations, 64 percent of all 
teachers who heard about Census in Schools received Census in 
Schools materials, 65 percent would use those additional census 
teaching materials if they were made available, and 63 percent 
agreed that the student take-home materials were an effective 
communications tool.
    Of equal importance is the value that the community 
partners placed on these materials. Excluding the sample census 
form itself, the Census in Schools materials were ranked as the 
most helpful informational tool that the 140,000 community 
partners used to reach targeted populations.
    Let me repeat that if I may. Excluding the sample census 
form itself, the Census in Schools materials were ranked as the 
most helpful informational tool that the 140,000 community 
partners used to reach targeted populations.
    Looking ahead to 2010, you should first know that 
Scholastic has been in discussions with DraftFCB and has 
offered both core and expanded proposals for the Census in 
Schools. We are recommending that the program harness 
advancements in technology and draw upon Scholastic's and the 
Bureau's experiences from Census in Schools 2000 in order to 
implement an even more efficient, cost-effective and far-
reaching program.
    Based on our experience, Scholastic believes any successful 
bidder for the 2010 Census in Schools Program would wish to 
consider the following: First, a scalable and flexible plan 
that combines Census in Schools 2000 experience with current 
technologies in teaching environments; second, a combined use 
of print and digital mediums for promotions, educational tools 
and outreach to the home; and, finally, a capacity to allow 
more teachers to easily identify and use census materials that 
match their students' needs and align with national standards.
    In closing, the 2000 Census in Schools Program succeeded in 
promoting the importance of participating in the census and in 
providing quality educational materials at no cost to schools.
    Mr. Chairman, members of the subcommittee, I thank you for 
this opportunity to testify, and I would be pleased to answer 
your questions.
    [The prepared statement of Mr. Lange follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Clay. Thank you so much, Mr. Lange, for that 
informative testimony.
    Let me go to Mr. Gonzalez for questions, 5 minutes.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    Let me ask Dr. Harrison. You know there was a GAO report 
that came out and one of the concerns. I am trying to figure 
out how this, the lack of or the ability to maybe conduct a 
dress rehearsal to the extent, to the degree that it has in the 
past would impact the communications campaign. Do you have an 
opinion on that?
    Mr. Harrison. How the inability to conduct a rehearsal 
might affect?
    Mr. Gonzalez. Right. In the GAO study, it just basically 
says that the Bureau also will institute new strategies through 
second mailings and new approaches to remove late mail returns 
but has only tested some aspects of these operations and will 
be unable to test them in a dress rehearsal, making it 
difficult to estimate their impact on operations in 2010.
    Then in Mr. Lange's written testimony, he makes reference 
to a dress rehearsal in 2000.
    I am just wondering. What I think what the Bureau is facing 
is maybe an inability to conduct a dress rehearsal to the 
extent that it did in the past. Does that impact this 
communications plan that we have been discussing and is the 
subject of the hearing today?
    Mr. Harrison. I think that any time that you try to do 
something like this campaign, reach people, convince people to 
participate, the dialog that will accomplish that has to be 
reached by trial and error. One of the strengths of partnership 
is people who have been in communication with populations.
    So I would suspect that you would learn something in a 
dress rehearsal that would help you develop a more effective 
national campaign once you get there. So, other things being 
equal, yes, I think you can expect that people might learn 
early in the campaign, things that they might have learned from 
a dress rehearsal if the communications were part of it.
    Mr. Gonzalez. I will take this up with Dr. Murdock in what 
we are going to do to maybe address some of the shortcomings as 
a result of the inability of the dress rehearsal, again, to the 
degree we have in the past.
    Mr. Lange, the Census in the Schools, I remember this with 
Dr. Prewitt 10 years ago, and I thought it was pretty 
effective.
    She is actually pointing out something right now in the 
testimony that I may have missed, and I apologize. Is it scaled 
down, the Census in the Schools?
    I think there was reference that what has been eliminated 
would be grades 7 through 12. Am I correct in that?
    Mr. Lange. Well, we have proposed two phases in our 
recommendations to DraftFCB: a core phase at $4 million and an 
additional expanded phase and, in the core phase, that 7 and 12 
is not included in that.
    Mr. Gonzalez. Now why?
    Mr. Lange. Financial limitations, budget limitations.
    Mr. Gonzalez. So we made the financial investment 10 years 
ago, but we are not going to make the same financial investment 
to cover grades K through 12 this go-round?
    Mr. Lange. In the core program, that would be correct. In 
the expanded proposal, it would definitely be included.
    Mr. Gonzalez. The difference between core and the expanded 
is?
    Let's just talk dollars. You have a substantial amount, 
obviously, in the core because that is your main activity. In 
the expanded, I would say it is probably less extensive effort.
    Mr. Lange. The core program is a very focused program and 
effective program that is designed to reach the top 
communities, if you will, that require HTC outreach, and it 
would go to 35,000 K through 6 schools in terms of print media 
or media in hand that would help them. It is available to all K 
through 6 schools on the Internet in a digital form.
    By expanding from $4 million to, say, upwards of $12 
million, you would be able to broaden the program quite 
significantly to include all K-12 schools with more materials 
in hand and more robust Census in Schools resources for all 
schools that it would reach.
    Mr. Gonzalez. In the hard to count populations--I am trying 
to figure this out--it would go K through 6 or whatever it is. 
We will capture a certain amount of the kids from these 
particular households, but it is not that those are over-
represented in those grades of these particular hard to count 
households.
    I am trying to make sense of it somehow here. We say, well, 
we have to identify certain grades in which these particular 
households may be over-represented by their children's 
enrollment. It is going to be K through 6.
    That is not accurate, is it?
    Mr. Lange. It is not going to be exclusive to K through 6.
    Mr. Gonzalez. Right. I mean these populations, the hard to 
count populations, their children are spread out through K 
through 12. They are not all concentrated at K through 6.
    Mr. Lange. That is correct. That is correct.
    Mr. Gonzalez. Thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Clay. Thank you, Mr. Gonzalez.
    Ms. Watson, you are recognized.
    Ms. Watson. I will keep my time until after Ms. Jackson-
Lee.
    Mr. Clay. Sure.
    Ms. Jackson-Lee, proceed.
    Ms. Jackson-Lee. Again, my appreciation for the courtesies 
of this committee, and this is a fascinating challenge.
    Dr. Harrison, I would like to explore some policy questions 
with you, and I will start first. I think my colleague and 
friend, Congressman Jefferson, was detained, but many of us 
know the travesty that occurred in 2005, Hurricane Katrina, 
that saw the largest evacuation, I believe, that we have 
witnessed in the history of this Nation short of the voluntary 
``go west, young man'' and ``young woman'' I assume in the 
1800's.
    So, as we look toward the census and we know that one State 
has been depleted of almost a million persons, many of whom 
consider themselves still placed in that State, what kind of 
policy should we be looking at in order to be fair to a State 
like Louisiana that has many of its constituents still viewing 
themselves as displaced and still viewing themselves as 
residents of Louisiana? That is one question.
    A second question is what in your mind do you think the 
concept was, and there must be some high order to it, of 
counting Johnnie Mae's grandson, and I don't want to stereotype 
us, in so and so's prison as having resided in that prison when 
Johnnie Mae is still counting or Mrs. Jones or Mr. Johnson is 
still counting that person as a resident in their home?
    Most often, that home is in an underserved, needy area, and 
so that count is diminished because those numbers are counted 
in some way, far away rural community. You question whether the 
resources that come back to the rural community anywhere equate 
to the need inasmuch as there are individuals incarcerated and 
being paid for.
    My last policy question to you would be the issue of 
students who likewise are counted in the area that they are in? 
Maybe there is more of an explanation there, but again I wonder 
about the areas of which many of them come from.
    Mr. Harrison. These are penetrating questions. There is a 
legal answer, and there is a social policy answer, and I am 
afraid that the two are opposite.
    Ms. Jackson-Lee. Help me out because I may want to redo the 
legal answer.
    Mr. Harrison. You would need to ask a lawyer, but the 
Article I of the Constitution.
    Ms. Jackson-Lee. That you cited.
    Mr. Harrison. Pardon? Yes, that mandates the census, 
Article I, Section II mandates that seats in the House of 
Representatives should be determined and ``apportioned among 
the several States according to their respective numbers,'' 
which essentially implies residency in the State.
    This, I think, has been interpreted to mean that if you are 
displaced as a victim, as displaced by Katrina or some of the 
recent flooding in the Mississippi River, if you are a prisoner 
residing now in prison in a different State and if you are a 
student going to school in a different State, you would be a 
resident of the State in which you are residing, even though I 
think most social planners and for most of the social purposes 
for which we are disbursing funds, Federal funds, etc., what we 
should be interested in is how many prisoners will be returning 
to their State of origin, their locality of origin, how many 
students might be returning to there. Their needs, students at 
a university, are very different than the needs as a resident 
once they complete their studies, etc.
    So I think that some of what, that this is mandated by a 
Constitution that is over 200 years old and that clearly did 
not anticipate some of these things.
    Ms. Jackson-Lee. If I may, because I want to move to Dr. 
McKinzie, but I like the way you framed it. Let me just ask for 
a quick yes or no. Is it something you think is worthy of the 
Congress' reconsideration, short of a constitutional amendment?
    I mean there are ways of looking at the Constitution and 
modifying the interpretation by statute, by case law. Is it 
worth considering?
    Mr. Harrison. I think the Congress could give serious 
consideration in funding formulas to say that we want the count 
not to be by the resident rules that govern apportionment, but 
we want the count to be by the place of origin, the home State 
of the student, of the prisoner, etc. so that some funding, 
particularly programs targeted to those populations. There 
might well be room that the courts would agree with to have 
clauses that would specify the State of origin rather than the 
current State of residency.
    Ms. Jackson-Lee. If the gentleman would indulge me, I thank 
you, Dr. Harrison. Mr. Lange, I am not discounting you, but if 
I could just quickly ask Dr. McKinzie, and I will ask you for a 
quick yes or no as well.
    Dr. McKinzie, what I like most in your testimony was what 
we need and what we didn't do. You remember my question earlier 
to Mr. Murdock about the partnership specialists, 680 for a 
country that is large.
    What you are suggesting is that the 2010 committee is ready 
to go and, if you expand all of the various partners, then you 
need resources. I assume those specialists are helpful in 
getting you materials.
    What is your assessment of the mind set of our census this 
time around? Are they getting it about needing more resources, 
getting it out to you quickly, having these special partners 
and do we, as a Congress, need to make sure that we get the 
engine behind the thinking of the Census Bureau?
    It seems like they are repeating where they went, where we 
were in 2000. We are right back where we were before.
    And, Mr. Lange, if you would just followup quickly by just 
indicating whether you are getting the attention you need for 
your school effort through the Census Bureau.
    Dr. McKinzie.
    Ms. McKinzie. The short answer is that they are committed, 
but they have started very late. There is not enough funding, 
and they are taking, in an analogy, a shotgun approach when it 
needs to be very precise and deep.
    Ms. Jackson-Lee. Mr. Lange, if the chairman indulges me for 
your final answer?
    Mr. Lange. The answer is yes, we have had very in-depth 
discussions with DraftFCB. I need to point out that we have not 
been selected. We are still in the competitive bidding process. 
So they have been very receptive to our information, and they 
have provided us with a lot of information as well.
    So I think there is very good dialog there.
    Ms. Jackson-Lee. You are in the selection process, and I 
know you hesitate to comment.
    But, in any event, let me thank you, Mr. Chairman. I just 
want to indicate that I am unhappy as to where we are. This is 
a very important hearing that you are having and however I can 
be of help in terms of turning on the light about what is 
needed, I would be happy to do so.
    Maybe 2 years out, we might have some legislation on some 
of the policy questions that I asked Dr. Harrison.
    So I yield back, and I thank you, Mr. Chairman, for your 
leadership.
    Mr. Clay. Thank you, Ms. Jackson-Lee. I certainly want to 
explore the possibility of reclassifying both students and 
prisoners, and we will have further discussions on that. Thank 
you.
    Ms. Watson.
    Ms. Watson. I want to thank all the panelists.
    As the hour draws a little late here, I would like to 
address my questioning to Dr. McKinzie because we are 
personally involved and the Pan-Hellenic Council represents all 
the African American Greek organizations. I have read your 
summary. What unique features can the Pan-Hellenic bring to the 
2010?
    I could read through. I have, and I know what they are, but 
I would like the rest of our audience hear how we can be so 
effective because we are unique.
    Ms. McKinzie. Well, one, we are volunteers, but what is 
unique, I mean our greatest asset is our infrastructure. Six 
thousand chapters around the world in rural and urban 
communities with members ready to execute a very precise plan 
is an asset that we bring to this partnership because we also 
have a passion about an accurate count, and that really is a 
very unique asset that we do bring.
    And so, the advertising is good, but what works for us is 
long-term planning so that we can make sure we are activating 
90 percent or more of that 6,000-chapter network to count and 
recount until we know everything has been counted. That is what 
we think we have that is very unique, that the current plan 
doesn't seem to work not because it is not planned well, but 
there is just not enough time.
    For example, the department represents. We are having 
conferences this summer. As you noted, ours is here. There are 
the other nine are having them also. While the Bureau will be 
at our conferences, they will be there in the way of what we 
would call advertising.
    What I would have liked to have seen in ours, given 25,000 
members here, is rolling out very specific tasks that could be 
done beginning this fall before next spring, that would ensure 
and identify issues that would allow us to make a count work.
    So while we are getting the awareness out there. But it is 
in our community then, after that, it is the so what?
    Ms. Watson. I get the sense that we have not started early 
enough, getting that awareness out.
    I think about the homeless population in my own city. In an 
evening's time, it could be anywhere between eighty and ninety 
thousand people homeless. They don't know about the census. 
They don't have an address, and we did address that by letting 
them register at a shelter, a homeless shelter.
    But what does it mean to them, and so are we working on 
interpreting why an accurate count can really impact on them in 
a positive way? Are we doing any of that, Dr. McKinzie?
    Ms. McKinzie. That would require awareness, education and a 
plan.
    An example with the Bureau, if it is determined in an urban 
area that our approach is A which include homeless populations, 
etc., but in rural areas it may be B. What we have as a unique 
group is that once we roll out an urban plan and a rural plan 
and once our volunteers have executed it, they could also do 
the same thing other places around the globe.
    That is that infrastructure potential that I speak to, and 
we have not been able to effectively move our Partnership 
Program from what we did in 2000 to how do we get better at 
this in 2010.
    Ms. Watson. What is kind of disappointing to me is that the 
budget has not increased for this effort where our population--
and I am being very personal in looking at my own State and my 
own district--we grow by 2,000 per day.
    Also, people are moving out to other places as well. Our 
State is on fire right now. We are a desert for the most part, 
and we have a huge shortfall of budget. But still, the people 
that are there need to be counted.
    I don't think that the budget set aside for this outreach, 
integrated outreach into minority communities is recognizing 
the change in demographics in the last 10 years. I think that 
is unfortunate.
    And so, I think your organization composed of men and women 
with college educations and a commitment to service can speak 
loudly. In between now and the time we begin the process, I 
would like maybe you to go to the press through your various 
organizations and let them know what is needed in our 
respective communities, and I think you can do that.
    I know very often we use our sorority and fraternity houses 
as a place for training and for providing materials. I think 
through that network that you have, we can speak to that guy 
who is sleeping on the streets and doesn't really understand 
why it is important to be counted and the lady who is in the 
apartment and she comes to the door and says there are only two 
of us that live here and really 12 are hotbedding it. You know 
something about that.
    I always tell the enumerators. I said, go up over the 
liquor stores. I said, see who is living over the cleaners and 
also come out on Sundays and holidays where people get out of 
these small apartments and play with their children. You can 
get some sense about the numbers.
    So I think we play a very crucial role in determining how 
many individuals are in the United States regardless of whether 
they are legally here or not legally here. We set our budgets 
on populations.
    I think that our organization, our combined Pan-Hellenic 
can do a tremendous job in helping our census of 2010 and to 
continue to be unique in what we can provide.
    I want to thank Dr. Lange and Dr. Harrison for being here 
and I want to thank my chairman. If you don't mind, I have a 
responsibility, and I have to ease out to get there. So thank 
you so much.
    Mr. Clay. I do understand and thank you so much.
    Dr. Harrison, as you know, the Bureau has experienced 
several setbacks in its efforts to reengineer the 2010 census, 
the biggest being problems with the technology, the field data 
collection system.
    In your professional opinion, what are some of the 
operational changes the Bureau must make in order to get on a 
consistent path to reducing the undercount particularly of 
those demographic groups that are undercounted each census?
    Mr. Harrison. One thing we can learn from the 2000 census, 
the Bureau was--up until January 1999, the Supreme Court ruled 
that it could not adjust for the undercount--was planning to 
do, to conduct a census in which it would adjust for the 
undercount. When it was not permitted to do that, the Bureau 
had less time than it currently has to completely redesign the 
2000 census and achieve the results, the improvements that we 
saw in 2000.
    I think it will take. Dr. Prewitt, the Director for the 
2000 census, I think I just have to say did a remarkable job. I 
think you need leadership. You need management and, as Dr. 
McKinzie said, I think you need a great deal more intensive 
focus right now.
    The campaign is, if we use a football analogy, is the air 
game. The ground game is what the Bureau needs to pay attention 
to. The ground game is getting the enumerators in place, 
identifying the places where you are going to target more 
enumerators, the ``be counted'' kinds of campaigns, all of 
these things which will be practiced in the dress rehearsal.
    But that is where I would urge the committee and others 
concerned with this to pay very detailed attention to the 
Bureau's plans for the address list, non-response followup, 
ground game because that is where they have to be.
    Mr. Clay. Thank you so much for that response.
    Dr. McKinzie, your recommendations for action are a great 
starting point to getting the Partnership Program up and 
running. It is my hope that the Bureau will take them to heart. 
I am certainly sure they heard them today and they heard the 
other concerns of the people on this dais as well as this panel 
of witnesses.
    Again, thank you so much for being here.
    Mr. Lange, in your statement, you said over 90 percent of 
teachers connect with Scholastic on a regular basis, but you 
know that a survey found only 56 percent of teachers had heard 
of the Census in the Schools Program. Can you explain the 
discrepancies and what are Scholastic's plans to ensure that 
every teacher including those that do not connect with you know 
about the Census in the Schools program?
    Mr. Lange. Well, I would first say that the evolution in 
digital technology has greatly improved our ability to connect 
with teachers and that we have over two million unique teacher 
visitors to the site that we did not have in census 2000.
    I would also say that the campaign that we initially 
conducted in census 2000 was more of a direct marketing 
campaign and specific targeted outreach. It was not directed to 
be a mass campaign, if you will, to reach all at the beginning. 
It did migrate to that toward the end of the program as the 
program matured and became more robust, and more ambitious 
goals and objectives were put to it.
    I believe that in the upcoming 2010 in our recommendations 
there, that we will be able to resolve that greatly, given what 
the resources we now have to draw on.
    Mr. Clay. Wonderful. On behalf of myself and my colleagues, 
I would like to thank all of our witnesses who participated in 
this hearing today.
    It is my hope that the Census Bureau will exercise due 
diligence in its effort to count each and every person in this 
country and in Puerto Rico and the island areas on April 1, 
2010. Please let Congress know how to partner with the Bureau 
to ensure an accurate count.
    With that, I will conclude the hearing and again say, thank 
you all for your participation. Hearing adjourned. Thank you.
    [Whereupon, at 5:56 p.m., the subcommittee was adjourned.]
    [The prepared statements of Hon. Joe Baca and Hon. Charles 
B. Rangel and additional information submitted for the hearing 
record follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
